No. 19-____

IN THE

Supreme Court of the United States
————
AUTOMOTIVE BODY PARTS ASSOCIATION,
Petitioner,
v.
FORD GLOBAL TECHNOLOGIES, LLC,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
ROBERT G. OAKE, JR.
Counsel of Record
OAKE LAW OFFICE, PLLC
700 S. Central Expy.
Suite 400
Allen, TX 75013
(214) 207-9066
rgo@oake.com
Counsel for Petitioner
February 10, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
Design patents are limited to “any new, original and
ornamental design for an article of manufacture.”
35 U.S.C. § 171(a). Under the patent exhaustion
doctrine, a patentee’s decision to sell a product exhausts
all of its patent rights in that item. The unrestricted
sale creates an implied license to use, which includes
the right to repair. Analysis of whether a right to
repair exists requires identification of the correct
article of manufacture.
The Federal Circuit held that repair rights and
identification of the article of manufacture should be
determined solely by what is claimed in the patent.
This holding allows a patentee to greatly diminish or
eliminate the right to repair and allows improper
broadening of design patent protection over unclaimed
portions of a design. The question presented is:
How should the article of manufacture be determined
when applying the patent exhaustion and repair doctrines in design patent cases?

(i)

ii
RULE 29.6 STATEMENT
Automotive Body Parts Association (“ABPA”) has no
parent corporation and no publicly held company owns
10% or more of its stock.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

RULE 29.6 STATEMENT ...................................

ii

TABLE OF AUTHORITIES ................................

vi

INTRODUCTION ................................................

1

OPINIONS BELOW ............................................

3

JURISDICTION ..................................................

3

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .................................

3

STATEMENT OF THE CASE ............................

4

A. Statutory Background ..............................

4

B. Patent Exhaustion and Right to Repair
Principles ..................................................

6

C. Automotive Repair Industry ....................

8

D. FGTL’s Design Patents.............................

10

E. The District Court Decision......................

11

F. The Federal Circuit Decision ...................

13

REASONS FOR GRANTING THE WRIT ..........

17

I. This Court Should Review the Federal
Circuit’s Holding that a Claiming Test
should be the Sole Test used to Identify
the Article of Manufacture in a Right to
Repair Analysis and to Determine Repair
Rights ........................................................

17

(iii)

iv
TABLE OF CONTENTS—Continued
Page
A. The Claiming Test conflicts with
Samsung Electronics v. Apple, is
unworkable, and should not be
Adopted ................................................

17

B. The Claiming Test Conflicts with
Patent Exhaustion and Right to
Repair Precedents of this Court and
the Federal Circuit and will Greatly
Weaken or Eliminate the Right to
Repair...................................................

22

C. Writ Should be Granted Because the
Flaws in the Claiming Test Are
Evident and Litigants Should not be
Burdened with an Unworkable Test
that can lead to Perverse Results .......

25

II. The Decision Below Presents Issues of
Recurring and Nationwide Importance ...

27

CONCLUSION ....................................................

29

APPENDIX
APPENDIX A: JUDGMENT, U.S. District
Court, Eastern District of Michigan (February
23, 2018) .........................................................

1a

APPENDIX B: OPINION AND ORDER, U.S.
District Court, Eastern District of Michigan
(February 20, 2018) ........................................

3a

APPENDIX C: OPINION, U.S. Court of
Appeals for the Federal District (July 11,
2019) ...............................................................

31a

v
TABLE OF CONTENTS—Continued
Page
APPENDIX D: ORDER ON PETITION FOR
PANEL REHEARING AND REHEARING
EN BANC, U.S. Court of Appeals for the
Federal District (September 13, 2019) ..........

50a

APPENDIX E: VEHICLE HEAD LAMP,
United States Design Patent Metros et al.
(Feb. 8, 2005) ..................................................

52a

APPENDIX F: EXTERIOR OF VEHICLE
HOOD, United States Design Patent Metros
et al. (Feb. 8, 2005) .........................................

56a

APPENDIX G: DECLARATION OF JOSEPH
TSAI, U.S. District Court, Eastern District
of Michigan (October 31, 2016) ......................

60a

vi
TABLE OF AUTHORITIES
CASES

Page(s)

Aiken v. Manchester Print Works,
1 F. Cas. 245 (C.C.D.N.H. 1865) ........ 12, 13, 22
Apple, Inc. v. Samsung Electronics Co. Ltd,
Case No. 11-cv-01846, WL 4776443
(N.D. Cal. October 22, 2017)................. 1, 17, 21
Aro Mfg. Co. v. Convertible Top
Replacement Co.,
365 U.S. 336 (1961) ...................................

8

Automotive Body Parts Association v.
Ford Global Technologies, LLC,
293 F.Supp.3d 690 (2018) ......................... 3, 11
Automotive Body Parts Association v.
Ford Global Technologies, LLC,
930 F.3d 1314 (Fed. Cir. 2019) .................

2, 3

Bonito Boats, Inc. v. Thunder Craft
Boats, Inc.,
489 U.S. 141 (1989) .....................................

28

Bottom Line Management, Inc. v.
Pan Man, Inc.,
228 F.3d 1352 (Fed. Cir. 2000) .................

7

Carborundum Co. v. Molten Metal
Equip. Innovs.,
72 F.3d 872 (Fed. Cir. 1995) ..................... 24, 25
CoreBrace LLC v. Star Seismic LLC,
566 F.3d 1069 (Fed. Cir. 2009) .................

8

Egyptian Goddess v. Swisa,
543 F.3d 665 (Fed. Cir. 2008) ...................

26

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Graham v. John Deere Co.,
383 U.S. 1 (1966) .......................................

28

Helferich Patent Licensing, LLC v.
N.Y. Times Co.,
778 F.3d 1293 (Fed. Cir. 2015) .................

6

Hewlett-Packard Co. v. Repeat-O-Type
Stencil Mfg. Corp.,
123 F.3d 1445 (Fed. Cir. 1997) .................

7

Impression Prods., Inc. v. Lexmark Int’l, Inc.,
137 S. Ct. 1523 (2017) ....................... 6, 9, 10, 22
In re Schnell,
46 F.2d 203 (C.C.P.A. 1931) .....................

15

In re Zahn,
617 F.2d 261 (C.C.P.A. 1980) ...................

1, 5

Intel Corp. v. Broadcom Corp.,
173 F. Supp. 2d 201 (D. Del. 2001)...........

8

Intel Corp. v. ULSI Sys. Technology, Inc.,
995 F.2d 1566 (Fed. Cir. 1993) .................

7

Jazz Photo Corp. v. Int’l Trade Comm.,
264 F.3d 1094 (Fed. Cir. 2001) ......... 6, 7, 18, 22
Kendall Co. v. Progressive Medical
Technology, Inc.,
85 F.3d 1570 (Fed. Cir. 1996) ............... 7, 22, 24
Keurig, Inc. v. Sturm Foods, Inc.,
732 F.3d 1370 (Fed. Cir. 2013) ..................

7

Lexmark Int’l, Inc. v. Impression Prods., Inc.,
816 F.3d 721 (Fed. Cir., 2016) ................ 6, 7, 22

viii
TABLE OF AUTHORITIES—Continued
Page(s)
LifeScan Scotland, Ltd. v.
Shasta Techs., LLC,
734 F.3d 1361 (Fed. Cir. 2013) .................

8

Litton Systems v. Whirlpool,
728 F.2d 1423 (Fed. Cir. 1984) .................

26

McCoy v. Mitsuboshi Cutlery, Inc.,
67 F.3d 917 (Fed. Cir 1995) ......................

7

Met-Coil Systems Corp. v.
Korners Unlimited, Inc.,
803 F.2d 684 (Fed. Cir. 1986) .....................

24

Morgan Envelope Co. v. Albany
Perforated Wrapping Paper Co.,
152 U.S. 425, 14 S. Ct. 627,
38 L.Ed. 500 (1894) ................................... 22, 23
Quanta Computer Inc. v. LG
Electronics, Inc.,
553 U.S. 617 (2008) ........................... 6, 8, 13, 22
Samsung Electronics Co. v. Apple Inc.,
137 S. Ct. 429 (2016) ................................passim
Sandvik Aktiebolag v. E.J. Co.,
121 F.3d 669 (Fed. Cir. 1997) ...................

7, 8

CONSTITUTION
U.S. Const. art. I, § 8, cl. 8 ....................... 3, 27, 28
STATUTES
28 U.S.C. § 1254(l) ........................................

3

28 U.S.C. § 1295(a)(1)...................................

13

ix
TABLE OF AUTHORITIES—Continued
Page(s)
28 U.S.C. § 1331 ...........................................

11

28 U.S.C. § 1338 ...........................................

13

28 U.S.C. § 1338(a) .......................................

11

35 U.S.C. § 101 .............................................

3, 4

35 U.S.C. § 171(a) ........................................passim
35 U.S.C. § 289 ............................................passim
SECONDARY AUTHORITY
MPEP § 1503.01(I) .......................................

16

MPEP § 1503.02 ...........................................

10

COURT FILINGS
Brief for the United States as Amicus
Curiae Supporting Neither Party, Samsung
Electronics Co., v. Apple Inc, 2016 WL
3194218, 2016 U.S. S. Ct. Briefs LEXIS
2322 (June 8, 2016) ...................................

17

INTRODUCTION
This is a design patent case presenting the issue of
how to determine the article of manufacture to analyze
whether repair or reconstruction is occurring under
the patent exhaustion and repair doctrines.
The design patent statute, 35 U.S.C. § 171(a), states
in relevant part “[w]hoever invents any new, original
and ornamental design for an article of manufacture
may obtain a patent therefor . . . .” (emphasis added).
The phrase “for an article of manufacture” permits
design patents to be obtained on designs for complete
articles and also for portions of complete articles.
See In re Zahn, 617 F.2d 261, 268 (C.C.P.A. 1980).
Identifying the article of manufacture is necessary
(1) when determining damages under 35 U.S.C. §289
and (2) when applying the patent exhaustion and
repair doctrines.
In Samsung Electronics Co. v. Apple Inc., 137 S. Ct.
429 (2016), this Court was presented with the first
issue concerning damages. This Court held the term
“article of manufacture” as used in 35 U.S.C. § 171(a)
and in 35 U.S.C. § 289 was broad enough to include
both the article and its component parts. Id. at 435.
This Court left it to the lower courts to develop a test.
Following remand, the district court adopted the fourpart test proposed by the United States in Samsung
Electronics. See Apple, Inc. v. Samsung Electronics
Co. Ltd, Case No. 11-cv-01846, WL 4776443, *35 (N.D.
Cal. October 22, 2017).
This petition presents this Court with the related
and equally important second issue: how to determine
the article of manufacture to analyze whether repair
or reconstruction is occurring under the patent exhaustion and repair doctrines.

2
Here, the Federal Circuit held that repair rights
and the article of manufacture should be determined
solely by what Ford Global Technologies, LLC (FGTL)
actually claimed. See Automotive Body Parts Association v. Ford Global Technologies, LLC, 930 F.3d 1314,
1325 (Fed. Cir. 2019). App. 48a. However, the court
did not apply its own new claiming test in its analysis,
and instead selected component articles of manufacture whose complete designs had not been claimed in
the design patents. The Federal Circuit’s failure to
use its own claiming test was a predictable result of
the defective nature of the test. As will be explained
in this petition, the claiming test is contrary to the
statutory framework for design patents, is contrary to
this Court’s precedent, and is unworkable when applied
to the many different fact patterns that can and will be
presented in design patent cases. It is wrong and
should be abandoned.
ABPA argues that the article of manufacture should
be determined by an embodiment test. This Court
uses an embodiment test for determining whether
patent exhaustion applies for method patents. An
embodiment test is predictable even when the article
of manufacture may be difficult to determine, is
consistent with this Court’s precedent, and is consistent with patent exhaustion and repair doctrine
principles. Regardless of whether this Court adopts
the embodiment test for design patents, this Court
should review the Federal Circuit’s decision and, at a
minimum, reverse and remand this case for development of a proper test.

3
OPINIONS BELOW
The opinion of the U.S. Court of Appeals for the
Federal Circuit is reported at 930 F.3d 1314 and
reproduced at App. 31a-49a. The order of the court of
appeals denying rehearing en banc is reproduced at
App. 50a-51a. The opinion and order of the U.S.
District Court for the Eastern District of Michigan is
reported at 293 F.Supp.3d 690 and reproduced at App.
3a-30a. The final judgment of the U.S. District Court
for the Eastern District of Michigan is unreported and
is reproduced at App. 1a-2a.
JURISDICTION
The Court of Appeals denied rehearing en banc on
September 13, 2019. App. 50a-51a. On December 4,
2019, the Chief Justice extended the time for filing a
petition for a writ of certiorari to February 10, 2020.
This Court has jurisdiction under 28 U.S.C. 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Constitution art. I, § 8, cl. 8 provides in
pertinent part that:
The Congress shall have Power . . . To
promote the Progress of Science and useful
Arts, by securing for limited Times to Authors
and Inventors the exclusive Right to their
respective Writings and Discoveries.
35 U.S.C. § 101 states:
Whoever invents or discovers any new and
useful process, machine, manufacture, or
composition of matter, or any new and useful
improvement thereof, may obtain a patent

4
therefor, subject to the conditions and
requirements of this title.
35 U.S.C. § 171(a) states:
Whoever invents any new, original and
ornamental design for an article of manufacture may obtain a patent therefor, subject to
the conditions and requirements of this title.
35 U.S.C. § 289 states:
Whoever during the term of a patent for a
design, without license of the owner, (1) applies
the patented design, or any colorable imitation thereof, to any article of manufacture for
the purpose of sale, or (2) sells or exposes for
sale any article of manufacture to which such
design or colorable imitation has been applied
shall be liable to the owner to the extent of his
total profit, but not less than $250, recoverable in any United States district court
having jurisdiction of the parties.
Nothing in this section shall prevent, lessen,
or impeach any other remedy which an owner
of an infringed patent has under the provisions of this title, but he shall not twice recover
the profit made from the infringement.
STATEMENT OF THE CASE
A. Statutory Background
The patentable subject matter statutes for design
patents and utility patents are fundamentally different.
The utility patent statute, 35 U.S.C. § 101, states
“[w]hoever invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof,

5
may obtain a patent therefor, subject to the conditions
and requirements of this title.” In contrast, the design
patent statute, 35 U.S.C. § 171(a), states “[w]hoever
invents any new, original and ornamental design for
an article of manufacture may obtain a patent
therefor, subject to the conditions and requirements of
this title.”
The word “therefor” in the utility patent statute
refers to, inter alia, the words “machine” and “manufacture,” whereas in the design patent statute the
word “therefor” refers not to “article of manufacture,”
but rather to “design.” See In re Zahn, 617 F.2d at 268.
This distinction means that unlike utility patents,
design patents are not limited to designs of an “article
of manufacture,” but also can include designs for
portions of articles of manufacture. Id. Further, since
the patented design can be just a portion of an article
of manufacture, the design patent need not be limited
to just one article of manufacture. Rather, the design
claimed can be embodied in both a portion of an article
of manufacture and also a portion of a component of
an article of manufacture. The instant case provides
an example. The design claimed in the D489,299
Patent is embodied both in a portion of the vehicle and
in a portion of the component hood. Likewise, the
design claimed in the D501,685 Patent is embodied in
both a portion of the vehicle and in a portion of the
component headlamp. As stated by the Federal Circuit
in its opinion, “Ford’s U.S. Patent No. D489,299 and
U.S. Patent No. D501,685 protect designs used in
certain models of Ford’s F-150 trucks.” (emphasis
added) App. 32a.
The conclusion that a claimed design can be
embodied in both an article of manufacture and in a
component of an article of manufacture is supported

6
by this Court’s statements in Samsung Electronics
that “[t]he term ‘article of manufacture,’ as used in
§ 289, encompasses both a product sold to a consumer
and a component of that product” and “[t]his reading
of article of manufacture in § 289 is consistent with 35
U.S.C. § 171(a), which makes ‘new, original and
ornamental design[s] for an article of manufacture’
eligible for design patent protection.” Id. at 434, 435.
B. Patent Exhaustion and Right to Repair
Principles
“Patent exhaustion is a judicially fashioned doctrine
without a specific source in congressionally enacted
text stating the terms of this limitation on patent
rights.” Helferich Patent Licensing, LLC v. N.Y. Times
Co., 778 F.3d 1293, 1305 (Fed. Cir. 2015). Under the
patent exhaustion doctrine, a patentee’s decision to
sell a product exhausts all of its patent rights in that
item . . .” and “[t]he sale ‘terminates all patent rights
to that item.’” Impression Prods., Inc. v. Lexmark Int’l,
Inc., 137 S. Ct. 1523, 1529, 1531 (2017) (citing Quanta
Computer Inc. v. LG Electronics, Inc., 553 U.S. 617,
625 (2008)). The unrestricted sale of a patented article
(or an article embodying or sufficiently embodying a
patent), “by or with the authority of the patentee,
‘exhausts’ the patentee’s right to control further sale
and use of that article by enforcing the patent under
which it was first sold.” Jazz Photo Corp. v. Int’l Trade
Comm., 264 F.3d 1094, 1105 (Fed. Cir. 2001); see also
Lexmark Int’l, Inc. v. Impression Prods., Inc., 816 F.3d
721 (Fed. Cir., 2016) (stating “[t]he doctrine of patent
exhaustion (or ‘first sale’ doctrine) addresses the circumstances in which a sale of a patented article (or an
article sufficiently embodying a patent), when the sale
is made or authorized by the patentee, confers on the
buyer the ‘authority’ to engage in acts involving the

7
article, such as resale, that are infringing acts in the
absence of such authority.”). Id. at 726.
Patent exhaustion is grounded on “the theory that
an unconditional sale of a patented device exhausts
the patentee’s right to control the purchaser’s use of
that item thereafter because the patentee has bargained
for and received full value for the goods.” Keurig, Inc.
v. Sturm Foods, Inc., 732 F.3d 1370, 1373 (Fed. Cir.
2013). The patent exhaustion doctrine applies to design
patents. See Jazz Photo, 264 F.3d at 1110.
The “authorized sale of a patented product places
that product beyond the reach of the patent,” Intel
Corp. v. ULSI Sys. Technology, Inc., 995 F.2d 1566,
1568 (Fed. Cir. 1993), and creates an “implied license,”
under which “a patent holder receives a reward for
inventive work in the first sale of the patented
product.” McCoy v. Mitsuboshi Cutlery, Inc., 67 F.3d
917, 921 (Fed. Cir 1995). The “implied license to use
include[s] the right to repair the patented article and
necessarily to purchase repair parts from others.”
Kendall Co. v. Progressive Medical Technology, Inc., 85
F.3d 1570, 1573 (Fed. Cir. 1996). The implied license
covers both the original purchaser of the article and
all subsequent purchasers. Hewlett-Packard Co. v.
Repeat-O-Type Stencil Mfg. Corp., 123 F.3d 1445, 1451
(Fed. Cir. 1997). The right to repair is a question of
law. See Bottom Line Management, Inc. v. Pan Man,
Inc., 228 F.3d 1352, 1355 (Fed. Cir. 2000).
“The distinction between permitted and prohibited
activities, with respect to patented items after they
have been placed in commerce by the patentee, has
been distilled into the terms ‘repair’ and ‘reconstruction.’” Jazz Photo, 264 F.3d at 1102. “[T]here is no
bright-line test for determining whether reconstruction or repair has occurred.” Sandvik Aktiebolag v.

8
E.J. Co., 121 F.3d 669, 674 (Fed. Cir. 1997). The
ultimate determination is based upon “the totality of
the circumstances.” Id. at 673. Prohibited reconstruction must be “true reconstruction of the entity as to ‘in
fact make a new article’ . . . a second creation of the
patented entity.” Aro Mfg. Co. v. Convertible Top
Replacement Co., 365 U.S. 336, 346 (1961).
Patent exhaustion and the right to repair apply to
so-called “have-made” rights: “[B]y exercising their
rights to ‘have [licensed products] made,’ licensees can
shield the unlicensed manufacturer who makes the
products for them and subsequently sells the products
to them from infringement liability by impliedly licensing the otherwise infringing actions.” Intel Corp. v.
Broadcom Corp., 173 F. Supp. 2d 201, 232 (D. Del.
2001). This is because “[t]he right to ‘make, use, and
sell’ a product inherently includes the right to have it
made by a third party, absent a clear indication of
intent to the contrary.” CoreBrace LLC v. Star Seismic
LLC, 566 F.3d 1069, 1072-73 (Fed. Cir. 2009).
If the thing sold “substantially embodies” patented
subject matter owned by the entity that authorized
the sale, then the patent is exhausted as to the thing
sold. Quanta Computer, 553 U.S. at 638. “Substantial
embodiment” in the method patent context is established if (1) the only reasonable and intended use of
the article is to practice the allegedly exhausted patent;
and (2) the article embodies the essential or inventive
features of the allegedly exhausted patent. See id. at
631; LifeScan Scotland, Ltd. v. Shasta Techs., LLC,
734 F.3d 1361, 1368–70 (Fed. Cir. 2013).
C. Automotive Repair Industry
ABPA is an association of companies that import,
make, and sell automotive body parts used to repair

9
cars and trucks that are damaged in collisions. App.
3a-4a. ABPA members distribute the repair parts to
collision repair shops and sometimes directly to
vehicle owners. App. 4a-5a. The only purpose of the
automotive repair parts sold by ABPA members is to
return the vehicles back to their original appearance
and condition. App. 60a-61a.
The automotive repair industry is the industry
selected by this Court to serve as an example for why
the exhaustion doctrine does not permit restraints on
alienation of patent rights:
Take a shop that restores and sells used cars.
The business works because the shop can
rest assured that, so long as those bringing in
the cars own them, the shop is free to repair
and resell those vehicles. That smooth flow
of commerce would sputter if companies that
make the thousands of parts that go into a
vehicle could keep their patent rights after
the first sale. Those companies might, for
instance, restrict resale rights and sue the
shop owner for patent infringement. And
even if they refrained from imposing such
restrictions, the very threat of patent liability
would force the shop to invest in efforts to
protect itself from hidden lawsuits. Either
way, extending the patent rights beyond the
first sale would clog the channels of commerce, with little benefit from the extra
control that the patentees retain.
Impression Products, 137 S. Ct. at 1532.
This example serves to illustrate why the embodiment
test proposed by ABPA is appropriate. Unless the ambiguity and uncertainty over “article of manufacture” in

10
the design patent exhaustion context is resolved with
a straightforward embodiment test, “the very threat of
patent liability [will] force the shop to invest in efforts
to protect itself from hidden lawsuits” and “clog the
channels of commerce.” Id.
FGTL owns and attempts to enforce a portfolio of
design patents that allegedly protect the designs for
body parts on Ford vehicles. App. 5a.
D. FGTL’s Design Patents
FGTL’s D501,685 (“D’685”) patent is entitled “Vehicle
Head Lamp” and claims “the ornamental design for a
vehicle head lamp, as shown and described.” App. 52a54a. The description states in relevant part “[t]he
headlamp is intended for attachment to a vehicle.”
App. 55a. The D’685 patent drawings claim only
partial features of the design, and use solid lines for
the claimed features and broken lines1 for the disclaimed features, as follows:

App. 5a, 33a.

1

The Manual of Patent Examining Procedure (MPEP)
§ 1503.02, subsection III states in relevant part “[s]tructure that
is not part of the claimed design, but is considered necessary to
show the environment in which the design is associated, may be
represented in the drawing by broken lines.”

11
FGTL’s D489,299 (“D’299”) patent is entitled
“Exterior of Vehicle Hood” and claims “the ornamental
design for exterior of vehicle hood, as shown and
described.” App. 56a-58a. The description states in
relevant part “[t]he hood is intended for attachment to
a vehicle.” App. 59a. The D’299 patent claims only
partial features of the design, and uses solid lines
for the claimed features and broken lines for the
disclaimed features, as follows:

App. 5a, 33a.
E. The District Court Decision
The district court’s jurisdiction was based on 28
U.S.C. §§ 1331 and 1338(a) as the action arose under
Title 35.
The district court held “ABPA’s exhaustion defense
fails as a matter of law” based on alleged “settled rules
and accompanying illustrations.” See Automotive
Body Parts Association v. Ford Global Technologies,
LLC, 293 F.Supp.3d 690, 705, 706 (E.D. Mich., 2019).
App. 28a. But the settled rules and illustrations used
by the district court involved only utility patent cases

12
and principles. Indeed, the primary case example
used by the district court is Aiken v. Manchester Print
Works, 1 F. Cas. 245 (C.C.D.N.H. 1865), a case
involving only a utility patent directed toward a knitting needle. No design patents were involved.
Although the district court acknowledged ABPA’s
argument based on the distinction between utility
patents and design patents, the court improperly
conflated utility and design concepts when addressing
ABPA’s argument - and as a result made statements
that are clearly incorrect. For example, the court
stated “[i]ndeed, in Aiken, the needles were not only
their own item but also a necessary part of another:
the knitting machine. And so while the needle patent
could be viewed as covering one entire item (a needle),
it could also be viewed as covering a portion of an item
that incorporates the other (the knitting machine).”
App. 29a. That clearly is incorrect. The needle patent
covered only the needle. Since there are no utility
patent principles that allow a patent on a component
part to impliedly incorporate an unclaimed parent
machine, the needle patent could not be viewed as
covering a portion of another article (the knitting
machine) not claimed in the patent. The court also
stated “[t]he patents at issue cover the design for those
two parts [the hood and headlamp] . . . .” App. 28a.
That statement also is clearly incorrect. The patents
at issue only cover portions of the hood and headlamp,
just as they only cover portions of the vehicle.
Further, since in Aiken it was the actual needle that
was claimed, there was no question that the article
of manufacture was the needle. That is not the case in
design patent law where the claimed design is for (not
of) an article and the article may be the parent article

13
and component(s) thereof. Aiken is not relevant to this
case.
Finally, the district court stated “[t]here is no case
dividing patent law this way—i.e., creating separate
exhaustion doctrines for utility and design patents.”
App. 29a. However, the district court failed to consider
that this Court historically approaches patent exhaustion in a flexible way that adapts the doctrine to new
fact patterns and different type of patents. For
example, in Quanta Computer, a case involving
microprocessors and chipsets, this Court addressed
the issue of whether patent exhaustion applied to
method patents. When respondent LGE argued
“because method patents are linked not to a tangible
article but to a process, they can never be exhausted
through a sale,” Quanta Computer, 553 U.S. at 628,
this Court disagreed, stating “[i]t is true that a
patented method may not be sold in the same way as
an article or device, but methods nonetheless may be
‘embodied’ in a product, the sale of which exhausts
patent rights.” Id. This Court’s embodiment test is an
approach well suited to design patents because a
design patent also is not of an article, but to a design
for an article, including portions thereof.
F. The Federal Circuit Decision
The Federal Circuit’s jurisdiction was based on 28
U.S.C. § 1295(a)(1), granting it exclusive jurisdiction
over final determinations of a district court when the
jurisdiction of that court was based, in whole or in
part, on 28 U.S.C. § 1338.
The Federal Circuit affirmed the decision of the district court and held without supporting authority that
the article used in the repair analysis is determined by
how the design patent is claimed (“to determine what

14
repair rights apply, we look to what Ford actually
claimed.”) App. 48a. This is a new rule for design
patent cases on an issue of first impression. The
court stated “Ford chose to claim designs as applied
to portions of particular components, and the law
permits it to do so.” App. 48a. This sentence does not
identify what the “particular components” are. The
court then stated “[t]hat the auto-body components
covered by Ford’s patents may require replacement
does not compel a special rule” and “the designs for
Ford’s hood and headlamp are covered by distinct
patents . . . .” App. 48a.
It clearly is incorrect to say the hood and headlamp
are “covered by Ford’s patents” and “are covered by
distinct patents.” The drawings indicate that only
portions of the hood and headlamp are claimed. In
Patent D’685, broken lines indicate that only the
dominant and subdominant lamp with bezels and light
caps, the reflector, and the side marker are claimed:

App. 5a, 33a.

15
In Patent D’299, broken lines indicate only the top
exterior portion of the hood is claimed:

App. 5a, 33a.
It also is incorrect to say that a component is
“covered by” a design patent claim. As the Federal
Circuit’s predecessor court stated, “[t]he claim is not
the article and is not the design PER SE, but is the
design APPLIED.” In re Schnell, 46 F.2d 203, 208
(C.C.P.A. 1931) (quoted citation omitted).
If, following the Federal Circuit’s stated rationale,
an article for doctrine of repair purposes is determined
by what is claimed, then the articles cannot be the
hood and headlamp, but rather components thereof.
However, for patent exhaustion and doctrine of repair
purposes, the Federal Circuit held that the articles
were the hood and headlamp. To reach that conclusion, the Federal Circuit could not have applied a
“claiming” test, but rather a form of an “embodiment”
test - because the claimed designs are embodied in the
hood and headlamp. However, if an embodiment test
is being used, then a fundamental flaw in the Federal
Circuit’s reasoning is that the claimed designs also

16
are embodied in the vehicle, which was the article
originally sold.
The Federal Circuit’s selection of the hood and
headlamp are arbitrary in that the opinion provides no
reason why the vehicle also cannot be considered an
embodiment of the claimed designs and an article for
doctrine of repair purposes. Indeed, the opinion states
that “Ford’s U.S. Patent No. D489,299 and U.S. Patent
No. D501,685 protect designs used in certain models of
Ford’s F-150 trucks.” (emphasis added) App. 32a. The
only rationale provided by the Federal Circuit is the
claiming test, and as explained above, the claiming
test when properly applied, does not identify the hood
and headlamp as the articles, but rather portions
thereof. Since the vehicle also embodies the claimed
designs, there is no reason the vehicle cannot be an
article used for the doctrine of repair. In support of
that conclusion is this Court’s statement that the
reference to “article of manufacture” as used in 35
U.S.C. § 171(a) is broad enough to include both the article
and its component parts. Samsung Electronics, 137
S. Ct. at 435. Indeed, the vehicle should be the article
used for the doctrine of repair because it was the
article originally sold.
Finally, as mentioned in the Federal Circuit’s
opinion, the title of the D’299 Patent is “Exterior of
Vehicle Hood,” App. 32a, and the title of the D’685
Patent is “Vehicle Head Lamp.” App. 33a. The Federal
Circuit does not state that the patent title is
dispositive when determining article of manufacture
for repair analysis. This is entirely proper because
(1) a title does not define the scope of a design patent
claim, as it can be broader than the claim, see MPEP
§ 1503.01(I.), and (2) the title of a design patent is
not dispositive when determining what the article of

17
manufacture is for purposes of 35 U.S.C. § 289. See
Apple, Inc., WL 4776443 at *35.
The genesis of the rationale that a patent title
should not be dispositive in an article of manufacture
determination is the United States’ amicus brief filed
in Samsung Electronics, which advocated use of the
four-part test now being used for determining article
of manufacture under 35 U.S.C. § 289. In the brief,
the United States wrote “the factfinder should not
treat the patent’s designation of the article as
conclusive” out of a concern that the patentee could
manipulate the result through its characterization of
the article in the title. 2016 U.S. S. Ct. Briefs LEXIS
2322, *46 (June 8, 2016). The title likewise should not
be deemed conclusive when considering the article of
manufacture for doctrine of repair purposes due to the
ease with which the result could be manipulated and
distorted.
REASONS FOR GRANTING THE WRIT
I. This Court Should Review the Federal
Circuit’s Holding that a Claiming Test
should be the Sole Test used to Identify
the Article of Manufacture in a Right to
Repair Analysis and to Determine Repair
Rights
A. The Claiming Test conflicts with
Samsung Electronics v. Apple, is
unworkable, and should not be Adopted
One important reason this Court reversed the
Federal Circuit in Samsung Electronics is that the
former rule always selected the parent article as the
article of manufacture for calculating damages under
35 U.S.C. § 289 – which often led to absurd results.
For example, a patentee would receive lost profits on

18
an entire parent article even though only a small
component of the parent article was claimed. The
Federal Circuit’s new claiming test will lead to equally
absurd results by so grossly distorting the repair
doctrine that permissible repair can lead to a conclusion of reconstruction and prohibited reconstruction
can lead to a conclusion of repair. For example,
assume that Figure 2 of the D’685 patent only claims
portions of the dominant lamp as illustrated below (all
design features other than a portion of the dominant
lamp are represented in broken lines and therefore
disclaimed) (Example One).

Assume further that the headlamp is damaged in a
collision where the dominant lamp is dented and can
be repaired. All the remaining portions of the
headlamp are damaged beyond repair and must be
replaced. Under the Federal Circuit’s holding that
selects the entire headlamp as the article of manufacture for doctrine of repair purposes, and due to the
amount of replacement parts used, the conclusion
likely would be impermissible reconstruction even
though the only portion claimed (the dominant lamp)
is being repaired. See Jazz Photo Corp v. International
Trade Commission, 264 F.3d 1094, 1103 (Fed. Cir.
2001). Right of repair likely would be denied, which in

19
effect would improperly grant patent protection to all
the unclaimed portions of the headlamp.
In a second example, assume that only the unclaimed
outer lens and claimed dominant lamp are damaged
beyond repair and must be replaced. (Example Two).
The remainder of the headlamp is undamaged and can
be reused. Under the Federal Circuit’s holding, the
conclusion likely would be permissible repair even
though the only portion claimed (the dominant lamp)
is being completely replaced.
One way to avoid these inverted and absurd results
is to apply a true claiming test that focuses solely on
the component claimed. In Example One, the repair
doctrine would apply because the component claimed
(the dominant lamp) is being repaired. In Example
Two, the repair doctrine would not apply because the
component claimed is being replaced.
But even under a true claiming test, an insurmountable problem remains because claimed designs
also can be for portions of component parts. For
example, assume that only portions of the lower halves
of multiple component parts of the headlamp are claimed
as follows (the upper halves have been converted to
broken lines and thereby disclaimed):

20
In this case, what is the article of manufacture
under a true claiming test? Is it the collection of
components claimed or just the collection of claimed
portions of the components? Following damage to the
headlamp, if some of the partially claimed component
parts are repaired, some are replaced, and some are
reused, is the result permissible repair or impermissible reconstruction? ABPA submits that a claiming test
is incapable of resolving these issues in design patent
cases. In a vehicle example alone, claims can include
portions of a vehicle, portions of components, portions
of sub-components, and combinations of portions of
the vehicle, components, and sub-components. The
act of repair/reconstruction can include repair or
replacement of any one or more of the component(s) or
sub-component(s), of which portions or combinations
of portions were claimed, for example, when portions
of a headlamp and surrounding fender or hood are
claimed in the same design patent and the headlamp
is replaced and the fender or hood is repaired or
reused.2
These examples illustrate that a claiming test
cannot work consistently across foreseeable fact patterns
even when the claiming test is strictly applied. Indeed,
if a claiming test was a workable solution to identifying an article of manufacture in the design patent
context, then it likely would have been selected as
the test in the 35 U.S.C. § 289 damages context. But
this Court did not adopt a claiming test in Samsung

2

An additional problem is that determining the article of
manufacture may require consideration of how the article is
manufactured and whether the article can be replaced without
also replacing another component. These factors are independent
of claiming, further indicating a claiming approach is unworkable.

21
Electronics v. Apple, and instead remanded the case to
the lower courts for development of an appropriate test.
The current test being used by district courts to
determine the article of manufacture in the 35 U.S.C.
§ 289 damages context does not use claiming as the
only factor to be considered. Rather, it consists of
these four factors: “(1) the scope of the design claimed
in the plaintiff’s patent, including the drawing and
written description; (2) the relative prominence of the
design within the product as a whole; (3) whether the
design is conceptually distinct from the product as a
whole; and (4) the physical relationship between the
patented design and the rest of the product, including
whether the design pertains to a component that a
user or seller can physically separate from the product
as a whole, and whether the design is embodied in
a component that is manufactured separately from
the rest of the product, or if the component can be
sold separately.” (numbering added) Apple, Inc., WL
4776443 at *35.3
Importantly, this four-part test proposed by the
United States and adopted by the district court
includes claiming as only one of four factors to be
considered – thereby recognizing that a workable test
cannot use only claiming to properly identify the
article of manufacture.

3

ABPA does not suggest that this four-part test should be
adopted for identifying an article of manufacture in a right to
repair analysis. The references to “product as a whole” in factors
(2), (3) and (4), and references to “product” in factor (4) are
references to the product sold by the accused infringer and not to
the “product as a whole” and “product” sold by the patent owner.
Therefore, this test cannot determine article of manufacture for
exhaustion purposes.

22
B. The Claiming Test Conflicts with
Patent Exhaustion and Right to Repair
Precedents of this Court and the Federal Circuit and will Greatly Weaken or
Eliminate the Right to Repair
Under the precedents of this Court and the Federal
Circuit, a patentee’s decision to sell a product exhausts
all of its patent rights in that item including the right
to control further sale and use of that article. See
Impression Products, 137 S. Ct. at 1529, 1531; Jazz
Photo, 264 F.3d at 1105. The product sold may be a
patented article or “an article sufficiently embodying a
patent . . . .” Lexmark Int’l, 816 F.3d at 726. The
embodiment test preserves patent exhaustion principles
and prevents a patentee from doing an end run around
the doctrine. See Quanta Computer, 553 U.S. at 62830. The right to use includes the right to repair. See
Kendall Co., 85 F.3d at 1573.
Following these principles, since a vehicle was sold
and the subject claimed designs are “used in” the
vehicle, App. 32a, are “in that item” and “sufficiently
embod[ied]” in the vehicle, the right to repair should
include the right to repair the vehicle. Further, there
is no reason why the right to repair the vehicle should
not include the right to replace components that also
embody the subject patents. The utility patent case
cited by the Federal Circuit to the contrary, Aiken, is
not applicable because the patent in Aiken was directed
only toward the needle, which necessarily made the
needle the article for right to repair purposes.4 That is

4

The Federal Circuit’s opinion in this case states that a case
from this Court, Morgan Envelope Co. v. Albany Perforated
Wrapping Paper Co., 152 U.S. 425, 435–36, 14 S. Ct. 627, 38 L.Ed.
500 (1894), endorsed Aiken’s reasoning and so its reasoning

23
unlike the subject claimed designs, which are for an
article and not of an article, and therefore are not tied
directly and exclusively to one article or its component
for right to repair purposes. The Federal Circuit’s new
claiming test, which eliminates the vehicle as an
article that embodies the claimed designs, is in conflict
with the principles from the above precedents.
The claiming test not only conflicts with precedent,
it allows a patentee to substantially weaken or
eliminate legitimate repair rights and to improperly
broaden patent rights through pernicious claiming
techniques. For example, assume that a component of
an article of manufacture consists of five subcomponents and is sold in an unrestricted sale. (Example
Three). Four of the subcomponents wear out after a
year’s use and need replacement. The fifth subcomponent is durable and either is reused “as is” or just
needs repair. A patentee could claim just a portion of
the fifth durable subcomponent design and leave the
remainder of the component article unclaimed. Under
the Federal Circuit’s claiming test that would select
the component as the article to undergo analysis under
the repair doctrine, replacement of the four unclaimed
subcomponents likely would be considered prohibited
reconstruction of the article even though the four
subcomponents were not claimed and the only claimed
subcomponent was either repaired or reused. Under
this absurd but likely result of the new claiming test,
a patentee through portion claiming can eliminate the
right to repair even though the only subcomponent
with a design portion claimed is being reused or just
repaired. Further, by using such a claiming strategy,
the patentee effectively can leverage patent protection
governs. App. 47a. Morgan Envelope is a utility patent case that
did not address design patents, so it is not relevant.

24
over components and subcomponents of articles
even though the components and subcomponents are
unclaimed and should have no patent protection at all.
Finally, the claiming test also conflicts with implied
license principles that underlie the right of repair.
See Kendall Co., 85 F.3d at 1573. In this case, since
the claimed designs were embodied in the vehicle sold,
an implied license to repair exists. Once a court
determines that a license should be implied due to an
initial authorized sale, the court next should look to
the circumstances of the sale to determine the scope of
the implied license. See Carborundum Co. v. Molten
Metal Equip. Innovs., 72 F.3d 872, 878 (Fed. Cir.
1995).
The circumstances of the vehicle sale support the
conclusion that the scope of the implied license
includes the right to repair the vehicle using the hood
and headlamp as repair/replacement parts. There is
no evidence in this case that when Ford sells a vehicle,
FGTL places any restrictions on the implied licenses
granted as a result of the sale. See Met-Coil Systems
Corp. v. Korners Unlimited, Inc., 803 F.2d 684, 686, 687
(Fed. Cir. 1986). Further, there is no evidence that Ford
and FGTL mark their vehicles or any of their component parts with design patent numbers. Therefore,
when a customer purchases a vehicle, they have no
notice, actual or constructive, that portions of the hood
and the headlamp are patented separately from the
vehicle sold. To the extent a customer may be aware
of the subject design patents, both subject patents
state the hood and headlamp are “intended for
attachment to a vehicle.” App. 55a, 59a. Additionally,
and in any event, there is no evidence that the vehicles
are advertised and sold as a collection of individual

25
parts with individual designs rather than as complete
articles of manufacture with overall designs.
The reasonable expectation is that a purchaser of
the vehicle receives an implied license to repair the
vehicle free from any patents covering portions of the
designs included in the vehicle. See Carborundum, 72
F.3d at 878 (The scope of an implied license “must
be based on what the parties reasonably intended as
to the scope of the implied license based on the
circumstances of the sale.”). At a minimum, there are
fact issues in that regard. Based on this reasonable
expectation and FGTL’s lack of action or notice to
dissuade this reasonable expectation, the scope of the
implied license should extend to repairing the vehicle
with the hood and headlamp repair/replacement parts.
The Federal Circuit’s new claiming test does not
include or recognize any of the above implied license
factors and therefore is in conflict with the legal
principles underlying the right to repair. In contrast,
ABPA’s proposed embodiment test, which would
identify the vehicle as the article of manufacture for
doctrine of repair purposes, is consistent with the
above implied license principles and factors.
C. Writ Should be Granted Because the
Flaws in the Claiming Test Are Evident
and Litigants Should not be Burdened
with an Unworkable Test that can lead
to Perverse Results
The time is ripe to accept this petition for a writ of
certiorari. The discussion and illustrations above
demonstrate that the Federal Circuit’s claiming test is
flawed and will prove to be unworkable when, in
addition to the article sold, there are numerous article
components and portions of article components that

26
embody the claimed design or embody portions of the
claimed design.
A similar, unworkable legal test has occurred before
in design patent law. Beginning in Litton Systems v.
Whirlpool, 728 F.2d 1423 (Fed. Cir. 1984), the Federal
Circuit used a point of novelty test for determining
design patent infringement. In Litton, the court stated
“even though the court compares two items through
the eyes of the ordinary observer, it must nevertheless,
to find infringement, attribute their similarity to the
novelty which distinguishes the patented device from
the prior art.” Id. at 1444. As more design patent
cases came before the Federal Circuit, it became apparent that the point of novelty test had flaws and did not
work when the claimed design consisted of multiple
features and there were multiple prior art references.
These flaws finally led the Federal Circuit to abandon
the point of novelty test twenty-four years later in
Egyptian Goddess v. Swisa, 543 F.3d 665 (Fed. Cir.
2008) (en banc).
In Egyptian Goddess, the Federal Circuit expressly
recognized that although the point of novelty test
“proved reasonably easy to apply in simple cases,” it
was more difficult to apply “where the claimed design
has numerous features that can be considered points
of novelty, or where multiple prior art references are
in issue and the claimed design consists of a combination of features, each of which could be found in one or
more of the prior art designs.” Id. at 671.
The lessons learned from the emergence and ultimate abandonment of the point of novelty test should
not be forgotten. Due to the unique nature of designs,
portion claiming, and the statutory scheme for design
patents, rules that may appear to work at first for
simple designs can prove to be unworkable and lead to

27
perverse results when the claimed designs and accused
products become more complex. The Federal Circuit’s
new claiming test is such a rule, as discussed and
illustrated above. Countless inventors, competitors,
litigants, and courts alike were burdened with the
incorrect point of novelty test for almost twenty-five
years. To avoid a similar unfortunate result, this
Court should recognize the flaws in the claiming test
now and accept this case for review.
II. The Decision Below Presents Issues of
Recurring and Nationwide Importance
By using a claiming test as the sole means to
identify an article of manufacture in a repair analysis,
the Federal Circuit’s decision distorts the patent
exhaustion and repair doctrines for design patents.
Absent this Court’s intervention, design patentees
now can use pernicious claiming strategies to minimize
or eliminate the doctrine of repair and to improperly
broaden design patent protection over unclaimed
portions of a design that do not qualify for patent
protection. These claiming strategies are not legitimate efforts to protect just rewards for innovative
ornamental designs, but rather improper attempts to
force product purchasers to pay additional monopolistic prices simply to return the purchased products
embodying the claimed designs back to their original
condition and appearance. This result not only will
adversely affect the automotive repair industry with
its thousands of daily repair part transactions, but
also will adversely affect every industry where products or product components have designs or portions
of designs covered by design patents and are in need
of repair.
The issue also has constitutional significance. The
Patent Clause authorizes Congress to “promote the

28
Progress of Science . . ., by securing for limited Times
to . . . Inventors the exclusive Right to their respective
. . . Discoveries.” U.S. Const., art. I, § 8, cl. 8. The
clause “reflects a balance between the need to encourage innovation and the avoidance of monopolies which
stifle competition without any concomitant advance
in the ‘Progress of Science and useful Arts.’” Bonito
Boats, Inc. v. Thunder Craft Boats, Inc., 489 U.S. 141,
146 (1989), which precludes “enlarge[ment of] the patent
monopoly without regard to the innovation, advancement or social benefit gained thereby.” Graham v.
John Deere Co., 383 U.S. 1, 5-6 (1966).
The Federal Circuit’s decision raises serious constitutional questions by permitting a patentee to
protect designs well beyond those attributable to its
own “Discoveries.” As illustrated in Example One and
Example Three above, a patentee through portion
claiming can eliminate the right to repair even though
the only subcomponent with a design portion claimed
is being reused or just repaired. And as further
illustrated by these two examples, the Federal Court’s
decision allows a patentee to leverage patent protection over components and subcomponents of articles
even though the components and subcomponents are
unclaimed and ineligible for patent protection. Since
the Federal Circuit’s decision substantially distorts
the delicate balance between the encouragement of
innovation and the avoidance of improper monopolies
that stifle competition, it presents an important and
recurring issue of constitutional significance that
warrants this Court’s review.

29
CONCLUSION
The petition should be granted.
Respectfully submitted,
ROBERT G. OAKE, JR.
Counsel of Record
OAKE LAW OFFICE, PLLC
700 S. Central Expy.
Suite 400
Allen, TX 75013
(214) 207-9066
rgo@oake.com
Counsel for Petitioner
February 10, 2020

APPENDIX

1a
APPENDIX A
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
————
Case No. 2:15-cv-10137
————
AUTOMOTIVE BODY PARTS ASSOCIATION,
v.

Plaintiff,

FORD GLOBAL TECHNOLOGIES, LLC,
Defendant.
————
JUDGMENT
Honorable Laurie J. MICHELSON
Consistent with the opinion and order entered on
February 20, 2018 (R. 72) and the Automotive Body
Parts Association’s subsequent notice (R. 73) it is
HEREBY ORDERED and ADJUDGED that Ford
Global Technologies, LLC is entitled to judgment on
the ABPA’s complaint seeking a declaration that U.S.
Patent Nos. D489,299 and D501,685 are invalid or
unenforceable. In entering this judgment, the Court
notes that, as reflected by the citations in its February
20, 2018 opinion, it did consider and address New
World International’s response brief filed in Case No.
15-10394 (R. 104) and associated appendix (R. 105) in
issuing the February 20 opinion. Those filings from
that case are thus deemed part of the record in this
case.
SO ORDERED.

2a
Dated: February 23, 2018
s/Laurie J. Michelson ___
LAURIE J. MICHELSON
U.S. DISTRICT JUDGE
————
CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing document was served upon counsel of record and any unrepresented parties via the Court’s ECF System to their
respective email or First Class U.S. mail addresses
disclosed on the Notice of Electronic Filing on February
23, 2018.
s/Keisha Jackson _______
Case Manager

3a
APPENDIX B
293 F.Supp.3d 690
UNITED STATES DISTRICT COURT, E.D.
MICHIGAN, SOUTHERN DIVISION
————
Case No. 2:15–cv–10137
————
AUTOMOTIVE BODY PARTS ASSOCIATION,
v.

Plaintiff,

FORD GLOBAL TECHNOLOGIES, LLC,
————

Defendant.

Signed February 20, 2018
————
Paul M. Kittinger, Thomas G. Cardelli, Cardelli,
Lanfear and Buikema, PC, Royal Oak, MI, Robert
Oake, Jr., Oake Law Office, Allen, TX, for Plaintiff.
Frank A. Angileri, Amy C. Leshan, Linda D. Mettes,
Marc Lorelli, Brooks Kushman P.C., Southfield, MI,
for Defendant.
————
OPINION AND ORDER DENYING FORD’S
MOTION TO DISMISS THE CASE AS MOOT
[61] AND DENYING THE ABPA’S MOTION
FOR SUMMARY JUDGMENT [39]
Laurie J. MICHELSON, U.S. District Judge
The Automotive Body Parts Association effectively
asks this Court to eliminate design patents on autobody parts. Members of the ABPA import, make, and

4a
sell auto-body parts that are used to repair cars and
trucks damaged in a collision. Ford Global Technologies, LLC holds a large portfolio of patents that protect
the designs for body parts for Ford vehicles. The
ABPA, on behalf of its members, filed this lawsuit
asking this Court to declare that two of Ford’s patents
protecting the design of two F–150 body parts are
either invalid or unenforceable. But the ABPA’s arguments are not specific to those two patents. Instead,
the ABPA argues that designs for auto-body parts are
simply not eligible for patent protection because consumers seeking to repair their vehicles do not select
body parts for their design and because the designs
were dictated by the body parts’ function. In the
alternative, the ABPA says that patents protecting the
designs of auto-body parts are unenforceable against
its members because the patent rights are exhausted
upon the first authorized sale of the vehicle.
The ABPA now seeks summary judgment. (R. 39.) It
asks this Court to declare as a matter of law that two
of Ford’s design patents are invalid or unenforceable.
The Court has carefully considered the parties’ arguments made not only in this case but in a related case
presenting the same invalidity and unenforceability
questions. Having done so, the Court finds that the
ABPA has not shown that Ford’s designs for an F–150
hood and headlamp are not eligible for design patent
protection and has not shown that Ford’s patent rights
to those designs are exhausted when Ford sells an
F–150 truck.
I.
A.
Plaintiff Automotive Body Parts Association is an
association of companies that distribute automotive
body parts. (See R. 2, PID 10–11.) Members of the

5a
ABPA sell auto-body parts to collision repair shops or
even directly to vehicle owners.
Defendant Ford Global Technologies, LLC owns a
portfolio of well over a hundred patents protecting the
designs for auto-body parts. (See R. 62, PID 1253–
1321.) Two are at issue in this case: U.S. Patent No.
D489,299 and U.S. Patent No. D501,685. The ’299
patent protects the design for a Ford F–150 hood and
the ’685 patent protects the design for an F–150 headlamp:

’299 patent, Fig. 1.

’685 patent, Fig. 2.
B.

It appears that the first significant dispute between
Ford and the ABPA arose in 2005. That year, Ford
filed an action with the United States International
Trade Commission against seven members of the
ABPA. (R. 68, PID 1453, 1585.) Ford initially accused
these ABPA members of infringing 14 of its design
patents for auto-body parts, including the two at issue
in this case. (See R. 68, PID 1585.) Ford later dropped
those two patents from the ITC action. The ITC action
(and a second one) settled in 2009, with Ford granting
a single ABPA member, LKQ Corporation, the exclusive right to sell auto-body parts protected by Ford’s
design patents. (See R. 62, PID 1329.)
As relevant to this case, things between Ford and
the ABPA remained relatively quiet until 2013, with
Ford sending only two cease-and-desist letters to

6a
ABPA members in 2011 and 2012. (See R. 68, PID
1466, 1471.) But in 2013, the tension between Ford
and ABPA member New World International, Inc.
escalated. (R. 62, PID 1250.) Ford wrote to New World,
“We purchased several articles from New World International that are covered by Ford design patents[.]”
(R. 62, PID 1260.) Ford referenced one of the design
patents at issue in this case, the ’299 patent. (Id.) Ford
asked New World to “refrain from importing or selling
parts covered by Ford design patents.” (R. 62, PID
1251.) New World did not comply (or at least that is
what Ford thought), so in November 2013, Ford sent
New World another letter. The second letter warned
that if New World did not stop offering certain autobody parts on its website, Ford “w[ould] be forced to
consider all avenues available to protect and enforce
its intellectual property rights.” (R. 61, PID 1245.)
Less than two weeks after Ford’s November 2013
letter, the ABPA filed this lawsuit in the Eastern
District of Texas. See Auto. Body Parts Assoc. v. Ford
Global Techs., No. 13–00705 (E.D. Tex. filed Nov. 25,
2013.) The ABPA asked the federal court in Texas to
declare six of Ford’s design patents, including the ’299
and the ’685 patents, invalid or unenforceable.
A few months later, Ford challenged the ABPA’s
standing to seek such relief. One way for an association to have standing to sue is for the association to
satisfy the Hunt test: “(a) its members would otherwise have standing to sue in their own right; (b) the
interests it seeks to protect are germane to the organization’s purpose; and (c) neither the claim asserted
nor the relief requested requires the participation of
individual members in the lawsuit.” Hunt v. Wash.
State Apple Advertising Comm’n, 432 U.S. 333, 343, 97
S.Ct. 2434, 53 L.Ed.2d 383 (1977). In September 2014,

7a
the federal court in Texas found that the ABPA had
satisfied this test. Auto. Body Parts Ass’n v. Ford Glob.
Techs., LLC, No. 4:13-CV-705, 2014 WL 4652123, at *8
(E.D. Tex. Sept. 17, 2014). As to the first Hunt requirement, the court found that “in its cease and desist letters, Ford accused New World of infringing the design
patents, which is sufficient to establish that New
World would have standing in its own right to bring
an action for declaratory judgment against Ford.” Id.
at *8.
Following that determination, the ABPA amended
its complaint. Instead of seeking a declaration that six
of Ford’s design patents for auto-body parts were invalid or unenforceable, it only sought that declaration as
to the ’299 and ’685 patents. (See R. 2.)
In January 2015, the federal court in Texas transferred the case to the Eastern District of Michigan and
it was assigned to this Court’s docket. (See R. 1.)
Just two weeks later, Ford filed a separate lawsuit
against New World in the Eastern District of Michigan.
Ford Global Techs., LLC v. New World Int’l, Inc. et al.,
No. 15–10394 (E.D. Mich. filed Jan. 29, 2015). Ford
initially accused New World of infringing the two
patents at issue in this case along with several others.
Like in the ITC action, Ford later dropped its claims
that New World had infringed the two patents at issue
here. Ford’s case against New World was reassigned
to this Court’s docket as a companion to this case.
C.
In October 2016, the ABPA filed the motion for
summary judgment now pending before this Court. (R.
39.) According to the ABPA, the ’299 and ’685 patents
are invalid because they do not protect ornamental
designs and they are unenforceable against ABPA

8a
members because when Ford sells an F–150 truck, its
patent rights in the design of the truck’s hood and
headlamp are exhausted. (See R. 39, PID 566.)
That same month, New World, which is represented
by the same counsel as the ABPA, filed for summary
judgment in the companion to this case. New World
essentially made the same invalidity and unenforceability arguments as did the ABPA. Although New
World subsequently withdrew that motion, Ford then
filed a mirror-image motion for summary-judgment: it
claimed that its design patents were not invalid for
failing to protect ornamental designs and that they
were not unenforceable under the doctrine of exhaustion. Given that ABPA’s motion in this case and Ford’s
in the companion addressed the same two issues, the
parties agreed that the Court should consider the arguments presented in all the briefs in both cases in
deciding both motions.
While this Court was in the midst of drafting its
opinion on the two motions, a threshold issue arose in
each case. The first was a result of TC Heartland LLC
v. Kraft Foods Group Brands LLC, ––– U.S. –––, 137
S.Ct. 1514, 197 L.Ed.2d 816 (2017). There, the Supreme
Court held that a corporation can be sued for patent
infringement only in its state of incorporation. See id.
at 1517. New World’s was Texas. So this question arose:
should Ford’s suit against New World remain in the
Eastern District of Michigan?
The other threshold issue involved this case.
Although it had made similar statements earlier, in its
summary-judgment briefing, Ford made clear that it
was not accusing New World of infringing the two
patents at issue in this case. (See R. 54.) As noted
above, under Hunt, the ABPA’s standing to seek a
declaratory judgment was premised on New World’s

9a
standing to do so. So the Court asked the parties to
brief the issue of mootness. (See R. 54.) In that briefing, Ford went a step further: it offered a covenant
never to sue New World (and a few others) for infringing the ’299 and ’685 patents. (See R. 61, PID 1104.) So
this question arose: is this case moot?
The Court has already answered one of the two
threshold questions. In particular, the Court found
that under TC Heartland, the Eastern District of
Michigan was not the proper venue for Ford’s suit
against New World and that New World had not
waived the defense of improper venue. See generally
Ford Glob. Techs., LLC v. New World Int’l Inc., No.
2:15-CV-10394, 2017 WL 5635451 (E.D. Mich. Nov. 7,
2017). The Court thus transferred Ford’s infringement
case to the Northern District of Texas. See Ford Glob.
Techs., LLC v. New World Int’l Inc., No. 3:17–cv–
03201–N (N.D. Texas filed Nov. 22, 2017.) Ford’s
summary-judgment motion the one that mirrors the
one the ABPA asks this Court to decide—remains
pending before the federal court in Texas.
II.
The Court now turns to the other threshold issue:
whether this case is moot.
On the surface, it seems so. Based on the covenant
it has offered and associated representations it made
at oral argument, Ford is willing to irrevocably commit
to never suing New World (and three other entities)
for infringing the two patents at issue in this case, the
’299 and ’685 patents. (See R. 63, PID 1104, 1348.)
And, as explained, the federal court in Texas found
that the ABPA had standing in this case because Ford
had sent New World cease-and-desist letters. In other
words, the ABPA’s standing to seek a declaration that

10a
the two patents-in-suit are invalid or unenforceable
was built upon New Worlds’ standing to do so. But
now, Ford has cut out that foundation by saying that
it will never sue New World for infringing the two
patents-in-suit.
But this case is not between New World and Ford—
it is between the ABPA and Ford. And so if there is a
case or controversy between another ABPA member
and Ford, the ABPA could pursue declaratory relief
premised on that member’s ability to do so.
In examining this issue, the Court is mindful that
after MedImmune, Inc. v. Genentech, Inc., 549 U.S.
118, 127 S.Ct. 764, 166 L.Ed.2d 604 (2007), “a declaratory judgment plaintiff does not need to establish a
reasonable apprehension of a lawsuit in order to establish that there is an actual controversy between the
parties.” See SanDisk Corp. v. STMicroelectronics,
Inc., 480 F.3d 1372, 1384 (Fed. Cir. 2007). Instead a
“more lenient legal standard,” Micron Tech., Inc. v.
Mosaid Techs., Inc., 518 F.3d 897, 902 (Fed. Cir. 2008),
applies: “whether the facts alleged, under all the circumstances, show that there is a substantial controversy, between parties having adverse legal interests, of
sufficient immediacy and reality to warrant the issuance of a declaratory judgment,” MedImmune, 549
U.S. at 127, 127 S.Ct. 764.
Considering “all the circumstances,” the controversy
between Ford and National Autobody Parts Warehouse, an ABPA member, is just substantial and just
immediate enough that an opinion on the merits of the
ABPA’s two defenses will not be advisory. It appears
that NAPW is a middle-man in the auto-body parts
distribution chain: it buys auto-body parts from manufacturers (or others more upstream than it) and then
resells them to repair shops (or others more down-

11a
stream than it). (See R. 69, PID 1678–80.) According
to NAPW, manufacturers of the hood and headlamp
covered by the two patents in this case have been told
by Ford’s exclusive licensee, LKQ, that if they manufacture the hood and headlamp for anyone but LKQ,
they would “be subject to patent enforcement efforts
by” Ford. (R. 69, PID 1680.) Notably, these manufacturers are themselves ABPA members. (R. 69, PID
1680.) Thus, if Ford is willing to sue those ABPA members for selling the hood and headlamp to NAPW, it
seems likely that Ford would sue NAPW if it, in turn,
sold the hood and headlamp to collision repair shops
or vehicle owners.
Of course, an Article III case or controversy cannot
be based on a hypothetical—that NAPW might someday buy the hood and headlamp from a manufacturer
and might someday sell it. But NAPW has averred
that in the past, it purchased and sold a hood and a
headlamp that Ford claims are covered by the two
patents-in-suit. (R. 69, PID 1679.) And NAPW says it
is “ready and willing” to do so now. (Id.) It has even
asked Ford for a license to sell the hood and headlamp
and was denied. (Id.) And it asked Ford’s exclusive
licensee to buy the hood and headlamp from it, but
LKQ refused. (Id.) So, on this record, there is more
than speculation that NAPW might sell the hood and
headlamp. It has in the past, it wants to now, and has
tried to obtain permission to do so.
The Court is aware that even under MedImmune’s
less-stringent test it is not enough that NAPW subjectively believes that it would be sued for patent
infringement if it purchased and then sold the hood
and headlamp—there must be “some affirmative act”
by Ford. SanDisk, 480 F.3d at 1380–81; accord Asia
Vital Components Co. v. Asetek Danmark A/S, 837

12a
F.3d 1249, 1253 (Fed. Cir. 2016). But there have been
affirmative acts by Ford against ABPA members in the
past: the ITC actions and the cease-and-desist letters.
See Prasco, LLC v. Medicis Pharm. Corp., 537 F.3d
1329, 1341 (Fed. Cir. 2008) (“Prior litigious conduct is
one circumstance to be considered in assessing whether
the totality of circumstances creates an actual controversy.”). And there is an affirmative act by Ford against
an ABPA member right now: Ford’s lawsuit against
New World alleging infringement of the 13 design
patents. Of course, Ford is not suing New World for
the two patents at issue in this case and has said it
never will. But to the extent that this would quell
NAPW’s fear of suit should it purchase and sell the
hood and headlamp, another fact heightens it: Ford
has refused to extend the covenant to all ABPA members and NAPW specifically.
Thus, while a close call, the Court finds a sufficient
case or controversy between Ford and NAPW.
MedImmune, 549 U.S. at 127, 127 S.Ct. 764. And given
that NAPW is an ABPA member, it follows that the
ABPA may seek a declaration that the ’299 and ’685
patents are invalid or unenforceable.
III.
The Court thus turns to the ABPA’s motion for summary judgment.
A.
Here too there is a threshold question: what is the
ABPA’s summary-judgment burden? At trial, an
accused infringer must show that a design patent is
invalid because it protects function rather than ornamentation by clear-and-convincing evidence. See
Ethicon Endo–Surgery, Inc. v. Covidien, Inc., 796 F.3d
1312, 1328 (Fed. Cir. 2015). And, at trial, the accused

13a
infringer must show that a patent cannot be enforced
against it by a preponderance of the evidence. Jazz
Photo Corp. v. United States, 439 F.3d 1344, 1350
(Fed. Cir. 2006). Thus, the ABPA moves for summary
judgment on issues it has the burden of proof on at
trial, which would usually mean that the ABPA has
the considerable summary-judgment burden of showing that every reasonable jury would find in its favor
(clearly and convincingly or by a preponderance, as the
case may be). See Hotel 71 Mezz Lender LLC v. Nat’l
Ret. Fund, 778 F.3d 593, 601 (7th Cir. 2015); Surles v.
Andison, 678 F.3d 452, 455–56 (6th Cir. 2012).
But the ABPA argues that whether a design is
directed to function is a question of law (See R. 39, PID
579.) (Its position on exhaustion is less clear. (See R.
39, PID 580–81.)) It strikes the Court that even if the
ultimate question is one of law, there are often underlying questions of fact. For example, whether there are
alternative designs for the product that allow it to perform the same function is a question of fact. So to the
extent that there are material factual disputes, it
would seem that the ABPA would have the considerable burden of showing that every reasonable jury
would resolve the material factual dispute in its favor.
See Hotel 71, 778 F.3d at 601; Surles, 678 F.3d at 455–
56.
Ultimately, the Court need not decide whether invalidity due to functionality and unenforceability due to
exhaustion present pure questions of law or mixed
questions of law and fact. The Court will assume in the
ABPA’s favor that it only needs to convince this Court
that the two patents in suit are invalid or unenforceable. It may proceed this way because, as will be
explained, the ABPA has not persuaded this Court to
find in its favor and so it would follow that it has not

14a
persuaded the Court that every reasonable jury would
find in its favor.
The Court now turns to the merits.
B.
The Court starts with the ABPA’s claim that the
’299 and the ’685 patents are invalid. The Patent Act
restricts design-patent protection to “ornamental”
designs. See 35 U.S.C. § 171. The ABPA claims that
the designs of the ’299 and the ’685 patents are not
ornamental. The ABPA makes two main arguments in
support of this claim: the designs of the two patentsin-suit are not “a matter of concern” and the two designs
are “dictated by function.” (See R. 39, PID 571–74;
R. 51, PID 575–76; Case No. 15–10394, R. 104, PID
5586–87.) (The ABPA places its dictated-by-function
argument under the matter-of-concern umbrella (see
Case No. 15–10394, R. 104, PID 5585–86), but whether
part of the matter-of-concern test or a separate test for
patent eligibility, the dictated-by analysis is the same.)
The Court considers these two primary arguments
in turn and then addresses ABPA’s related policy
arguments. None are convincing.
1.
The “matter of concern” approach to deciding
whether a design is entitled to patent protection is based
on a straightforward concept: if no one cares about a
particular design, then the design is not deserving of
patent protection. See Application of Stevens, 173 F.2d
1015, 1019 (C.C.P.A. 1949) (“It has been held repeatedly that articles which are concealed or obscure in
normal use are not proper subjects for design patents,
since their appearance cannot be a matter of concern.”).
An example of a design that is of no concern is the

15a
design for a rotary brush for a vacuum cleaner that,
during its normal use, is concealed from view. Id. at
1019.
The ABPA argues that the designs of the ’299 and
’685 patents are not a matter of concern because when
an F–150 is damaged (say in a crash), the owner
simply wants the body parts that will return her F–
150 to the way it looked when it was new. (R. 39, PID
572.) In other words, the ABPA says that the F–150
owner will not shop around and compare various hood
designs; instead she will, in mechanistic fashion, simply order the hood that came with the truck when it
came off the assembly line. (See R. 39, PID 573; Case
No. 15–10394, R. 104, PID 5586–87.) In further support of this assertion, the ABPA claims that vehicle
owners (or collision repair shops on the owner’s behalf)
“typically” order a replacement body part by part
number and thus never even consider the part’s design.
(See R. 39, PID 573.) And, says the ABPA, insurance
policies often only cover returning the vehicle to “its
pre-loss operational safety, function, and appearance.”
(R. 39, PID 572, 660.) Thus, the ABPA implies that if
the owner of an F–150 wants her insurer to pay the
repair costs, she needs to have her truck restored to
the way it looked before the accident. (See R. 39, PID
572, 577; but see R. 39, PID 627.)
The ABPA has not established a necessary premise
of its argument: that the “matter of concern” inquiry is
constrained to the perspective of a vehicle owner at the
time that she is buying a replacement body part, as
opposed, for example, to the time she initially buys the
truck. None of the ABPA’s legal authorities—Gorham
Manufacturing Co. v. White, 81 U.S. 511, 14 Wall. 511,
20 L.Ed. 731 (1871), the district court and Federal
Circuit opinions in Best Lock Corp. v. ILCO Unican

16a
Corp., or the district court and Sixth Circuit opinions
in Static Control Components, Inc. v. Lexmark Int’l,
Inc.—establish this premise. Moreover, there is
authority to the contrary.
Starting with Gorham, the ABPA relies on this
language: “[The acts of Congress which authorize the
grant of patents for designs] manifestly contemplate[ ]
that giving certain new and original appearances to a
manufactured article may enhance its salable value,
may enlarge the demand for it, and may be a meritorious service to the public.” 81 U.S. at 524–25 (emphasis
added). The Court agrees with the ABPA that the references to “salable value” and “demand” suggest that
in deciding whether a design is entitled to patent
protection, a court should take into account whether
design plays a role in consumers’ purchase decisions.
(See Case No. 15–10394, R. 104, PID 5582–83.) But
even if a consumer’s valuation of the design is key to
deciding whether the design is a matter of concern, it
does not follow that it is only the consumer’s perspective when she seeks to replace the product with the
patented design that matters. After all, an article’s
design may have been the very reason the consumer
bought the article in the first place. Or, at least, a
reason.
The two Best Lock opinions also do not help the
ABPA establish that the design of an auto-body part is
a matter of concern only if it is a matter of concern
when the auto-body part is being replaced. The design
patent in Best Lock covered a unique-looking key blade
(the portion of a key that is inserted into a lock). 94
F.3d 1563, 1564–65 (Fed. Cir. 1996). Although the
district court found that the blade’s design was not “a
matter of concern to a purchaser,” it did so by finding
that the design of the blade was never a matter of con-

17a
cern to the purchaser: “Ornamentation, or the aesthetic quality of this design, is not a matter of concern
during either the use of the product or at the time the
key or lock is purchased. . . . There is no evidence that
at any time in the commercial process the appearance
of the cross-section of the key or keyway represented a
matter of ornamental concern to the purchaser or the
user.” 896 F.Supp. 836, 843 (S.D. Ind. 1995) (emphases
added). In other words, the district court in Best Lock
did not limit the matter-of-concern inquiry to when a
lost key might need to be replaced (at which point
design would obviously not be a matter of concern
because the lock owner needs the one key that will
open his lock). And, as will be discussed below, the
Federal Circuit’s holding did not depend on whether
the key blade design was a matter of concern to purchasers. See Best Lock, 94 F.3d at 1566.
That leaves the ABPA with the two Static Control
opinions. Neither establish the premise missing from
the ABPA’s matter-of-concern argument. Static Control
involved a patent for the design of a toner cartridge.
697 F.3d 387, 421 (6th Cir. 2012). As in Best Lock, the
district court in Static Control found that the appearance of the cartridges were “of no matter of concern
during those cartridges’ entire existence—beginning
after completion of manufacture or assembly and ending with the ultimate destruction, loss, or disappearance of those cartridges.” 487 F.Supp.2d 830, 839 (E.D.
Ky. 2007) (emphasis added). And the Sixth Circuit’s
reasoning largely tracked that of the district court. See
697 F.3d at 422.
In short, none of Gorham, Best Lock, or Static Control limit the matter-of-concern inquiry to the consumer’s thought process when she is replacing an article with a patented design. As such, the ABPA has not

18a
established a necessary premise of its matter-of-concern
argument.
And, in fact, there is binding precedent that strongly
supports a finding that designs for auto-body parts
pass the matter-of-concern test for patent eligibility.
At issue in In re Webb was whether the design for an
artificial femur was eligible for patent protection. 916
F.2d 1553, 1555 (Fed. Cir. 1990). The patent examiner
and appeal board thought not, reasoning that the femur,
once placed inside the body, would never be seen and
thus its aesthetic was of no concern to anyone. Id. at
1556. The Federal Circuit rejected this argument. It
acknowledged that “replacement items” (like a vacuum
cleaner’s rotary brush) are either sold by part number
or at most viewed to assess whether they will do the
job; thus, how these items look are of no concern to
consumers. Id. at 1558. But the Federal Circuit pointed out that the design of other items (like a casket or
artificial femur), while of no concern in their ultimate
use, are of concern when marketed. Id. at 1558. Thus,
the Court held, “the inquiry must extend to whether
at some point in the life of the article an occasion (or
occasions) arises when the appearance of the article
becomes a ‘matter of concern.’” Id. at 1557 (emphasis
added).
In re Webb closes the door (or hood) on the ABPA’s
matter-of-concern argument. Even if Ford had not
produced considerable evidence on the point (see Case
No. 15–10394, R. 99, PID 4455–59), it is beyond reasonable debate that the design of an auto-body part is
important to consumers at least when they are deciding which car to buy. In other words, the look of the
vehicle matters or, in patent parlance, is a matter of
concern.

19a
2.
The ABPA also argues that the designs protected by
the ’299 and ’685 patents are not “ornamental” under
§ 171 because the designs were “dictated by function.”
Like the matter-of-concern test for design-patent
eligibility, the dictated-by-function test captures a simple concept: if an article had to be designed a certain
way for the article to function, then the design does not
deserve patent protection. See Ethicon Endo–Surgery,
Inc. v. Covidien, Inc., 796 F.3d 1312, 1328 (Fed. Cir.
2015). This is for two related reasons. One: the point
of granting monopolies on designs is to encourage
people to come up with innovative ones. See Donald S.
Chisum, 8 Chisum on Patents § 23.03[4] at 23–38
(2016). But if a design was dictated by how the article
works, then the design is more byproduct than innovation. See Avia Grp. Int’l, Inc. v. L.A. Gear California,
Inc., 853 F.2d 1557, 1563 (Fed. Cir. 1988) (“When function dictates a design, protection would not promote
the decorative arts, a purpose of the design patent
statute.”), abrogated on other grounds by Egyptian
Goddess, Inc. v. Swisa, Inc., 543 F.3d 665 (Fed. Cir.
2008). Two: if a design patent could protect a design
dictated by the article’s function, then the holder of a
design patent would effectively be granted a monopoly
on the function without having to clear the hurdles for
obtaining a utility patent, i.e., the monopoly on function would be unearned. See Chisum, supra, § 23.03[4].
The ABPA asserts that several functions dictate the
designs covered by the ’299 and ’685 patents. For one,
the ABPA says that the designs for the hood and
headlamp are dictated by the need to physically fit
onto the F–150, including mating with the surrounding body parts and connecting to the truck’s frame.
(See R. 39, PID 572; R. 51, PID 1031; Case No. 15–

20a
10394, R. 104, PID 5587.) For another, the ABPA says
that the designs are dictated by the need to match the
F–150’s overall aesthetic. (See R. 39, PID 572; R. 51,
PID 1031; Case No. 15–10394, R. 104, PID 5587.) And
the ABPA implies that insurance provisions and government regulations dictate the designs of the hood
and headlamp. (See R. 39, PID 572.)
Taking this last point first, the cases the ABPA cites
are inapposite. In Application of Carletti, 328 F.2d
1020, 1021–22 (C.C.P.A. 1964), the court did find that
the gasket was designed to meet military specifications but it also found that the design was simply not
for aesthetics: “[i]t seems naive in the extreme to
believe that anyone would try to ‘ornament’ the rubber
gasket on the under side of the bung cap for a gasoline
drum.” As for Shop*TV, Inc. v. Bed Bath & Beyond,
Inc., No. 09CV00057, 2010 WL 427782 (D. Colo. Jan.
19, 2010), the district court later withdrew its adoption
of that report and recommendation because the case
settled. See 2010 WL 582165. And legal authority
aside, ABPA has no evidence that insurance provisions or government regulations are so restrictive that
auto manufacturers cannot chose how to design their
trucks’ hoods or headlamps. Indeed, a stroll through a
used-car lot (or autotrader.com) reveals just the opposite.
The ABPA’s aesthetic-functionality argument has
more merit. Indeed, it has been accepted in trademark
law. Take Deere & Co. v. Farmhand, Inc., 560 F.Supp.
85 (S.D. Iowa 1982), for instance. There, John Deere’s
claim of trademark infringement rested in part on the
fact that a competitor had painted its loaders—a
bulldozer-like part that attaches to the front of a
tractor—“John Deere green.” See id. at 88–89. While
farm-equipment consumers might well have associ-

21a
ated the distinct shade of green with John Deere, the
court found that the color could still not serve as a
trademark because the color was aesthetically functional. Id. at 96–99. In particular, farmers testified
that matching the loader’s color with their tractor’s
color was an important factor in choosing which loader
to buy. Id. at 91, 98. The ABPA implies that the situation in this case is similar: just like “John Deere green”
allowed one part of the tractor (the loader) to match
the aesthetic of the tractor as a whole, Ford’s designs
allow the hood and headlamp to match the aesthetic of
the truck as a whole. (See R. 39, PID 572; Case No. 15–
10394, R. 104, PID 5588.)
For at least three reasons the Court declines to
import the aesthetic-functionality doctrine from trademark law to design-patent law.
First, no court has done so. This despite that both
trademarks and design patents have coexisted for well
over a century.
Second, trademark law and patent law serve different purposes. By ensuring that a mark is associated
with a particular source, trademark law simultaneously encourages the mark holder to make highquality goods and discourages competitors from selling
poor-quality goods under the guise of the mark. See
Qualitex Co. v. Jacobson Prod. Co., 514 U.S. 159, 164,
115 S.Ct. 1300, 131 L.Ed.2d 248 (1995). In other words,
“by protecting a firm’s reputation,” trademark law
“seeks to promote competition.” Id. at 164, 115 S.Ct.
1300. In contrast, patents inhibit competition. Schering–
Plough Corp. v. F.T.C., 402 F.3d 1056, 1065–66 (11th
Cir. 2005) (“By their nature, patents create an environment of exclusion, and consequently, cripple competition.”); see also Dawson Chem. Co. v. Rohm & Haas
Co., 448 U.S. 176, 215, 100 S.Ct. 2601, 65 L.Ed.2d 696

22a
(1980); Retractable Techs., Inc. v. Becton Dickinson &
Co., 842 F.3d 883, 893 (5th Cir. 2016). Yet the “policy
predicate for the entire [trademark] functionality doctrine stems from the public interest in enhancing
competition.” Keene Corp. v. Paraflex Indus., Inc., 653
F.2d 822, 827 (3d Cir. 1981).
Third, there is greater reason for trademark law to
be concerned with functionality (aesthetic or otherwise) than design-patent law. If a trademark could
protect function, the mark holder would gain a perpetual monopoly over the product’s function without clearing the hurdles for obtaining any patent—utility or
design. See Qualitex, 514 U.S. at 165, 115 S.Ct. 1300;
Keene, 653 F.2d at 824. In contrast, those seeking a
design patent must clear at least some hurdles related
to novelty. And the term of monopoly is limited to 15
years. Thus, the inequity of a design patent protecting
the aesthetically functional aspect of an article is
simply not as great as a trademark doing so.
In short, the ABPA has not persuaded the Court
that a design is not entitled to patent protection if it
performs an aesthetic function (like matching the
aesthetic of a hood to the aesthetic of an F–150).
That leaves the ABPA’s claim that the designs of the
’299 and ’685 patents are dictated by their need to
physically fit the F–150. But the need for the hood and
headlamp to mate with surrounding parts and truck
frame only restricts the pool of available designs in a
limited way. Those who buy trucks for their looks can
imagine a dozen hood and headlamp designs that
would physically fit the existing structure of the F–150.
But one does not have to imagine because Ford has
found real-life examples:

23a

Performance Part

’685 patent, Fig. 2.

Performance Part

’299 patent, Fig. 1.

(Case No. 15–13094, R. 99, PID 4639–40, 4678–4707,
4714–29.) The fact that there are “performance parts,”
i.e., alternative hood and headlamp designs that both
perform their intended function and fit the F–150,
strongly suggests that the designs are not dictated by
function. See Ethicon Endo–Surgery, Inc. v. Covidien,
Inc., 796 F.3d 1312, 1329–30 (Fed. Cir. 2015) (“We
have not mandated applying any particular test for
determining whether a claimed design is dictated by
its function and therefore impermissibly functional.
We have often focused, however, on the availability of
alternative designs as an important—if not
dispositive—factor in evaluating the legal functionality of a claimed design.”).
The existence of performance parts also serves to
distinguish this case from one of the ABPA’s principle
cases that the Court said it would revisit: the Federal
Circuit’s opinion in Best Lock. (See Case No. 15–10394,
R. 104, PID 5590–92.) There, the patent holder argued
that the design of the key blade was not dictated by
function because there were “unlimited” key blade and

24a
corresponding lock designs. 94 F.3d at 1566. The
Federal Circuit rejected this argument. It noted that
the patent was not directed to key-and-lock combination but just a key blade. Id. And, said the Court, there
was exactly one key blade that would physically fit the
corresponding lock. Id. So the blade had to be designed
as shown in the patent or it would not serve its intended
function. Id. Here, the existence of performance parts
demonstrates that the designs claimed in the ’299 and
’685 patents are not necessary for the hood and
headlamp to perform their intended functions.
In short, the ABPA has not persuaded the Court
that the designs of the ’299 and ’685 patents are dictated by function.
3.
That leaves the ABPA’s policy-based arguments for
invalidity.
For one, the ABPA claims that design patents are
premised on a quid pro quo: in exchange for a monopoly on its design, the patent holder contributes to the
decorative arts. (R. 39, PID 574–75.) The ABPA thinks
that Ford has not kept up its end of the bargain
because “design patent protection for automotive repair
parts does not promote the decorative arts or provide
other public benefits.” (R. 39, PID 575.) But it appears
that the basis for this last statement is that auto-body
part designs are dictated by function or of no concern
to consumers. As the Court has rejected these two
arguments, the policy argument must be rejected too.
The ABPA also says that if Ford is allowed to protect
its designs for F–150 body parts it is allowed “double
recovery”: once when the truck is sold, and then again
when the truck is repaired. (R. 39, PID 575.) But the
ABPA has no evidence that the revenue Ford receives

25a
by selling (or licensing LKQ to sell) replacement body
parts does not lower the initial sale price of the vehicle.
In any event, if the designs are “ornamental” within
the meaning of § 171, then it is for Congress, not this
Court, to address any “double recovery” issues.
The ABPA further identifies a “practical problem
that would arise if design patents on automotive repair
parts are not held invalid.” (R. 39, PID 576.) It refers
to the fact that patents give their holders the right to
exclude others from using the patented design so, if
Ford wanted, it could decide not to sell any replacement body parts itself and further decide to preclude
anyone else from doing so. (Id.) The result: “if an owner
wants an original design, then the owner has to
purchase a new vehicle.” (Id.) But the ABPA offers no
evidence to suggest that Ford has any plans to force its
customers to purchase a new vehicle every time a
customer’s vehicle sustains significant body damage.
And there are good reasons to think Ford has no such
plans: General Motors, Toyota, Volkswagen, Nissan,
Fiat–Chrysler, Honda, etc.
* * *
In sum, the ABPA has not persuaded the Court (by
clear and convincing evidence or otherwise) that Ford’s
design patents covering the F–150 hood and headlamp
are invalid.
C.
In the alternative, the ABPA argues that the ’299
and ’685 patents are unenforceable against ABPA members under the doctrine of patent exhaustion. The
Court is unpersuaded.
Like the doctrines discussed so far, the patent exhaustion captures a relatively straightforward concept.
Included in a patent holder’s bundle of rights are the

26a
rights to exclude others from selling or using an item
covered by her patent. See 35 U.S.C. §§ 154, 171. But
when she sells (or authorizes another to sell) the
patented item, she has reaped her reward, and so all
patent rights to that one item are “exhausted.” See
Bowman v. Monsanto Co., 569 U.S. 278, 283–84, 133
S.Ct. 1761, 185 L.Ed.2d 931 (2013). In other words, the
authorized sale “confers on the purchaser, or any
subsequent owner, the right to use or sell the [item] as
he sees fit.” Id. at 283, 133 S.Ct. 1761 (internal quotation marks and alteration omitted). And the purchaser’s
right to use the patented item includes the right to use
it for its lifetime, Adams v. Burke, 84 U.S. 453, 455,
17 Wall. 453, 21 L.Ed. 700 (1873), so the doctrine
of patent exhaustion also grants the purchaser of a
patented item the right to repair it, Standard Havens
Prod., Inc. v. Gencor Indus., Inc., 953 F.2d 1360, 1376
(Fed. Cir. 1991). And the right to repair the patented
item “includes the right to purchase repair parts.”
Standard Havens, 953 F.2d at 1376.
For example, suppose a company holds a patent that
covers a knitting machine (but has no patents covering
any individual part of the machine). If the company
sells the patented machine, the machine’s owner can
use the machine and, if it breaks, repair the machine
without worry that he is violating the patent-holder’s
rights. See Jazz Photo Corp. v. Int’l Trade Comm’n,
264 F.3d 1094, 1102–03 (Fed. Cir. 2001), other grounds
abrogated by Impression Prod., Inc. v. Lexmark Int’l,
Inc., ––– U.S. ––––, 137 S.Ct. 1523, 198 L.Ed.2d 1
(2017). And the machine’s owner may even repair the
machine by replacing worn out parts, say the knitting
machine’s needles, with new ones. Cf. Wilson v.
Simpson, 50 U.S. 109, 125–26, 9 How. 109, 13 L.Ed. 66
(1850).

27a
But exhaustion has its limits. The authorized sale of
a patented item permits the owner to sell and use the
one item that he purchased–not to make a replacement should that one item be destroyed. See Bowman,
569 U.S. at 283–84, 133 S.Ct. 1761. In other words,
“the [exhaustion] doctrine restricts a patentee’s rights
only as to the ‘particular article’ sold; it leaves untouched
the patentee’s ability to prevent a buyer from making
new copies of the patented item.” Id. at 284, 133 S.Ct.
1761 (internal citations omitted).
A second example helps illustrate this rule. In Aiken
v. Manchester Print Works, a company held a patent
that covered unique needles for a knitting machine.
See 1 F.Cas. 245 (C.C.D.N.H. 1865). As the company’s
sale of a knitting-machine-with-needles bundle exhausted the company’s patent rights to the needles, the
purchaser of the bundle could use the needles and
repair them (say by straightening out a bend). Id. at
247. But the Aiken court held that the purchaser of the
bundle was not permitted to make replacement needles. Id. In reaching its conclusion that the machine
could not be repaired by replacing worn out needles
with new ones, the court explicitly distinguished the
first example provided above, i.e., where a patent covered the knitting machine but no patent covered just
the needles. See id. (distinguishing Wilson v. Simpson,
50 U.S. 109, 9 How. 109, 13 L.Ed. 66 (1850)). The
Supreme Court long ago approved of the reasoning of
Aiken, see Morgan Envelope Co. v. Albany Perforated
Wrapping Paper Co., 152 U.S. 425, 434–36, 14 S.Ct.
627, 38 L.Ed. 500 (1894), and the Federal Circuit says
that the venerable case is still the law, see Helferich
Patent Licensing, LLC v. N.Y. Times Co., 778 F.3d
1293, 1304 (Fed. Cir. 2015).

28a
These settled rules and accompanying illustrations
show that the ABPA’s exhaustion defense fails as a
matter of law. In the ABPA’s view, when Ford sells an
F–150, its rights in the ’299 and ’685 are exhausted.
(R. 39, PID 583–84.) So, says the ABPA, when an F–
150 is damaged in an accident, the owner of the F–150
has the right to repair it. (R. 39, PID 584.) Thus,
according to the ABPA, the owner may replace the
hood and headlamps on the vehicle by making new
ones or by having new ones made for her. (See R. 39,
PID 584–85.) The problem with the ABPA’s argument
is that the F–150 is just like the knitting machine
in Aiken and its hood (or headlamp) is just like the
needles in Aiken. The patents at issue cover the design
for those two parts—not the design for the truck as a
whole—so while the authorized sale of an F–150
permits the owner to use and repair her hood and
headlamp, it does not permit her to make unauthorized replacements or have replacements made for her.
The ABPA responds that Aiken involved a utility
patent while this case involves design patents. And,
says the ABPA, while utility patents are for an article
of manufacture, design patents are for a design for an
article of manufacture. Compare 35 U.S.C. § 101, with
35 U.S.C. § 171. Thus, the ABPA claims, while a utility
patent can only protect an item, a design patent can
protect the design for a portion of an item. (R. 51, PID
1034; Case No. 15–10394, R. 104, PID 5597); see also
Application of Zahn, 617 F.2d 261, 268 (C.C.P.A. 1980)
(“While the [patented] design must be embodied in
some articles [of manufacture], the statute is not
limited to designs for complete articles[ ] or ‘discrete’
articles[.]”). From the ABPA’s perspective then, a
patent protecting a design for one item “is the same
as” a patent protecting the design for a portion of a
larger item that includes the other item. (R. 39, PID

29a
589; Case No. 15–10394, R. 104, PID 5600.) As applied
to this case, while the ’299 and ’685 patents protect the
design for the hood and headlamp for an F–150, that
is the same as protecting the design for a portion of the
F–150. (See id.) According to the ABPA, this is different than in Aiken where the patent at issue protected
an item, i.e., the needles. (See id.) And, says the ABPA,
this difference means that exhaustion permits repair
of the F-150 (not just repair of the hood and
headlamps), including by replacing the truck’s hood
and headlamps. (See id.)
There is no case dividing patent law this way—i.e.,
creating separate exhaustion doctrines for utility and
design patents. Indeed, in Aiken, the needles were not
only their own item but also a necessary part of another:
the knitting machine. And so while the needle patent
could be viewed as covering one entire item (a needle),
it could also be viewed as covering a portion of an item
that incorporates the other (the knitting machine).
And if there were a case where the ABPA’s distinction would warrant creating separate exhaustion doctrines for utility and design patents, this is not that
case. Like the multi-component machine with a
patented part in Aiken, the F–150 body is comprised of
multiple components with patented parts. This is not
a case dealing with a unitary vehicle body, a portion of
which is protected by a design patent. In the event of
an accident, F–150 owners do not need to replace the
entire vehicle body as if it were a one-piece shell. They
can instead replace separate body parts. But, as in
Aiken, they must do so subject to Ford’s patent rights
on those parts.
In short, under the long-standing limits on the doctrine of patent exhaustion, the mere purchase of an F–
150 does not convey to the owner the right to make

30a
new auto-body parts covered by Ford’s design patents.
It follows that the owner lacks the right to have those
parts made for her by ABPA members. The ABPA’s
exhaustion defense thus fails as a matter of law.
IV.
For the foregoing reasons, the Court finds that this
case is not presently moot and thus DENIES Ford’s
motion to dismiss (R. 61). The Court further finds that
the ABPA has not shown that U.S. Patent Nos.
D489,299 and D501,685 are invalid because the designs
they protect fall outside the scope of 35 U.S.C. § 171 or
that those two patents are unenforceable against ABPA
members because they become exhausted when Ford
sells F–150 trucks. It follows that the ABPA’s motion
for summary judgment (R. 39) is DENIED.
Moreover, having considered two full sets of briefing
on the ABPA’s two affirmative defenses, which is the
entirety of the ABPA’s declaratory-judgment complaint,
the Court intends to enter judgment in favor of Ford
for the reasons set forth in this opinion and pursuant
to Rule 56(f)(1). While Ford has not moved for summaryjudgment in this case, it has in the case that was formerly before this Court and now pending before a federal court in Northern Texas. And New World—which
is represented by the same counsel as the ABPA—
responded to that motion and, at the parties’ urging,
this Court considered that response and addressed those
arguments in writing this opinion. Discovery in this case
closed over a year ago (R. 35, PID 551), and both parties’
have indicated, if not outright said, that ABPA’s two
defenses could be decided as a matter of law. The
Court thus sees no basis for further argument on the
ABPA’s claims of invalidity and unenforceability.
SO ORDERED.

31a
APPENDIX C
930 F.3d 1314
UNITED STATES COURT OF APPEALS,
FEDERAL CIRCUIT
————
2018-1613
————
AUTOMOTIVE BODY PARTS ASSOCIATION,
Plaintiff-Appellant,
v.
FORD GLOBAL TECHNOLOGIES, LLC,
Defendant-Appellee.
————
Sealed Opinion Issued: July 11, 2019
Public Opinion Issued: July 23, 2019**
————
Robert Glenn Oake, Jr., Oake Law Office, Allen, TX,
argued for plaintiff-appellant. Also represented by
Paul Kittinger, Cardelli Lanfear PC, Royal Oak, MI.
Jessica Lynn Ellsworth, Hogan Lovells US LLP,
Washington, DC, argued for defendant-appellee. Also
represented by Katherine Booth Wellington; Frank A.
Angileri, Marc Lorelli, Brooks Kushman PC, Southfield,
MI.
Before HUGHES, SCHALL, and STOLL, Circuit
Judges.
STOLL, Circuit Judge.
*

This opinion was originally filed under seal and has been
unsealed in full.

32a
This case involves both differences and similarities
between design patents and utility patents. A design
patent protects a “new, original and ornamental design
for an article of manufacture.” 35 U.S.C. § 171(a).
While established law bars design patents on primarily functional designs for lack of ornamentality, utility
patents must be functional to be patentable. In many
other ways though, design and utility patents are similar. Section 171(b) of Title 35 demands as much, directing that the requirements that apply to “patents for
inventions shall apply to patents for designs” unless
otherwise provided.
Here, we decide what types of functionality invalidate a design patent and determine whether longstanding rules of patent exhaustion and repair rights
applicable to utility patents also apply to design
patents. Automotive Body Parts Association (ABPA)
asks us to hold that the aesthetic appeal—rather than
any mechanical or utilitarian aspect—of a patented
design may render it functional. And it asks us to
expand the doctrines of exhaustion and repair to
recognize the “unique nature” of design patents. Both
theories invite us to rewrite established law to permit
ABPA to evade Ford Global Technologies, LLC’s patent
rights. We decline ABPA’s invitation and affirm the
district court’s summary judgment.
BACKGROUND
I
Ford’s U.S. Patent No. D489,299 and U.S. Patent
No. D501,685 protect designs used in certain models
of Ford’s F-150 trucks. The D ’299 patent, titled
“Exterior of Vehicle Hood,” claims “[t]he ornamental
design for exterior of vehicle hood.” Figure 1, below,
illustrates the hood.

33a

The D ’685 patent, titled “Vehicle Head Lamp,”
claims “[t]he ornamental design for a vehicle head
lamp,” as shown in Figures 1 and 2, reproduced below.

The inventors of these designs are artists holding
Bachelor of Fine Arts degrees from the College for Creative Studies. In a declaration, one inventor explained
that the inventors had “full control and responsibility
for the exterior appearance of the . . . Ford F-150
truck,” that “the design team created and selected part
designs based on aesthetic appearance,” and that
although engineers reviewed the final designs, “[t]here
were no changes to the aesthetic designs of the[ ] parts
based on engineering or functional requirements.” J.A.
2538–39.

34a
II
ABPA, an association of companies that distribute
automotive body parts, clashed with Ford at the
International Trade Commission when Ford accused a
number of ABPA members of infringing the D ’299 and
D ’685 patents, among others. The ITC actions eventually settled, but only after the administrative law
judge ruled that “respondents’ [invalidity] defense
that the asserted patents do not comply with the ornamentality requirement of 35 U.S.C. § 171 has no basis
in the law,” J.A. 256, and that “there is no legal basis
for respondents’ assertion of [unenforceability based
on] either the patent exhaustion or permissible repair
doctrines,” J.A. 242.
Undeterred, ABPA sued Ford in district court,
seeking a declaratory judgment of invalidity or unenforceability of the D ’299 and D ’685 patents. ABPA
eventually moved for summary judgment. The district
court considered ABPA’s arguments and denied the
motion, noting that ABPA “effectively ask[ed] this
Court to eliminate design patents on auto-body parts.”
Auto. Body Parts Ass’n v. Ford Glob. Techs., LLC, 293
F. Supp. 3d 690, 694 (E.D. Mich. 2018). Though Ford
had not moved for summary judgment, the district
court announced its intention to enter judgment in
favor of Ford sua sponte pursuant to Federal Rule of
Civil Procedure 56(f)(1). Id. at 707. ABPA responded,
agreeing that it had not “include[d] any additional argument, authorities, or evidence beyond that which has
already been considered by this Court,” and stating
that it “d[id] not object to the prompt entry of final judgment so that [it could] file a notice of appeal.” J.A.
2149. The district court entered summary judgment,
and ABPA appeals.

35a
DISCUSSION
We review the district court’s sua sponte grant of
summary judgment under the law of the regional
circuit. See Charles Mach. Works, Inc. v. Vermeer Mfg.
Co., 723 F.3d 1376, 1378 (Fed. Cir. 2013). In the Sixth
Circuit, “[t]he substance of the district court’s decision
is reviewed de novo under the normal standards for
summary judgment.” Leffman v. Sprint Corp., 481
F.3d 428, 430 (6th Cir. 2007) (“The district court’s
procedural decision to enter summary judgment sua
sponte, however, is reviewed for abuse of discretion.”
(quoting Shelby Cty. Health Care Corp. v. S. Council of
Indus. Workers Health & Welfare Trust Fund, 203
F.3d 926, 931 (6th Cir. 2000))). Accordingly, we determine whether, after weighing all inferences in favor of
ABPA, Ford is entitled to judgment as a matter of law.1
See Leary v. Daeschner, 349 F.3d 888, 897 (6th Cir.
2003).
I
We first address ABPA’s invalidity arguments. Section 171 of Title 35 authorizes patents claiming “new,
original and ornamental design[s] for an article of
manufacture.” 35 U.S.C. § 171(a) (emphasis added).
Our precedent gives weight to this language, holding
that a design patent must claim an “ornamental” design,
not one “dictated by function.” See, e.g., High Point
Design LLC v. Buyers Direct, Inc., 730 F.3d 1301, 1315
1

Ordinarily, we review a district court’s determination of
whether a patented design is invalid due to functionality for clear
error. See Ethicon Endo-Surgery, Inc. v. Covidien, Inc., 796 F.3d
1312, 1328 (Fed. Cir. 2015). ABPA invites us to revisit this standard and establish de novo review. Given the de novo standard
inherent in review of summary judgment, we do not reach this
question.

36a
(Fed. Cir. 2013). We have recognized, however, that a
valid design may contain some functional elements.
After all, “a design patent’s claim protects an article of
manufacture, which ‘necessarily serves a utilitarian
purpose.’” See Sport Dimension, Inc. v. Coleman Co.,
820 F.3d 1316, 1320 (Fed. Cir. 2016) (quoting L.A.
Gear, Inc. v. Thom McAn Shoe Co., 988 F.2d 1117,
1123 (Fed. Cir. 1993)). But a design patent may not
claim a “primarily functional” design. Id. “If [a] particular design is essential to the use of the article, it can
not be the subject of a design patent.” L.A. Gear, 988
F.2d at 1123.
While “[w]e have not mandated applying any particular test,” certain considerations assist courts in
assessing whether a design is dictated by function.
Ethicon, 796 F.3d at 1329. These include:
[W]hether the protected design represents
the best design; whether alternative designs
would adversely affect the utility of the specified article; whether there are any concomitant utility patents; whether the advertising
touts particular features of the design as
having specific utility; and whether there are
any elements in the design or an overall
appearance clearly not dictated by function.
Berry Sterling Corp. v. Pescor Plastics, Inc., 122 F.3d
1452, 1456 (Fed. Cir. 1997). We have often emphasized
the presence or absence of alternative designs, noting
that the existence of “several ways to achieve the function of an article of manufacture,” though not dispositive, increases the likelihood that a design serves a
primarily ornamental purpose. Id. (quoting L.A. Gear,
988 F.2d at 1123); see also Nordock, Inc. v. Sys. Inc.,
803 F.3d 1344, 1361 (Fed. Cir. 2015) (affirming ornamentality where record showed “alternate designs

37a
available achieve the same utilitarian purpose”),
vacated on other grounds, ––– U.S. ––––, 137 S. Ct.
589, 196 L.Ed.2d 471 (2016); Rosco, Inc. v. Mirror Lite
Co., 304 F.3d 1373, 1378 (Fed. Cir. 2002) (“[I]f other
designs could produce the same or similar functional
capabilities, the design of the article in question is
likely ornamental, not functional.”).
A
ABPA posits (without record support) that consumers seeking replacement parts prefer hoods and headlamps that restore the original appearance of their
vehicles. It concludes that there is a functional benefit
to designs that are aesthetically compatible with those
vehicles. See, e.g., Appellant’s Br. 8–9 (“The function of
the claimed designs includes their appearance . . . .”).
From there, rather than arguing that Ford’s designs
are functional because they achieve some mechanical
or utilitarian goal, ABPA argues that Ford’s hood and
headlamp designs are functional because they aesthetically match the F-150 truck. But ABPA does not
identify, nor can we find, any design patent case ruling
aesthetic appeal of this type functional.
We hold that, even in this context of a consumer
preference for a particular design to match other parts
of a whole, the aesthetic appeal of a design to consumers is inadequate to render that design functional. As
the Supreme Court acknowledged almost 150 years
ago, “giving certain new and original appearances to a
manufactured article may enhance its salable value,
[and] may enlarge the demand for it.” Gorham Mfg.
Co. v. White, 81 U.S. (14 Wall.) 511, 525, 20 L.Ed. 731
(1871). But regardless of the market advantage conferred by a patented appearance, competitors may not
utilize a protected design during the patent’s life. See
id.; see also 35 U.S.C. § 289. To hold that designs that

38a
derive commercial value from their aesthetic appeal
are functional and ineligible for protection, as ABPA
asks, would gut these principles. The very “thing . . .
for which [the] patent is given, is that which gives a
peculiar or distinctive appearance,” its aesthetic.
Gorham, 81 U.S. at 525. If customers prefer the “peculiar or distinctive appearance” of Ford’s designs over
that of other designs that perform the same mechanical or utilitarian functions, that is exactly the type
of market advantage “manifestly contemplate[d]” by
Congress in the laws authorizing design patents. Id.
B
ABPA’s contrary arguments are unpersuasive. It
first asks us to borrow the principle of “aesthetic functionality” from trademark law. In that context, courts
have explained that a party cannot use trademark protection to prevent its competitors from using “important
product ingredient[s],” Qualitex Co. v. Jacobson Prods.
Co., 514 U.S. 159, 170, 115 S.Ct. 1300, 131 L.Ed.2d 248
(1995), or “from making their products as visually
entrancing as [its] own,” Pub’ns Int’l, Ltd. v. Landoll,
Inc., 164 F.3d 337, 339 (7th Cir. 1998) (Posner, J.)
(explaining that trademark and trade dress protection
are unavailable “if consumers derive a value from the
fact that a product looks a certain way that is distinct
from the value of knowing at a glance who made it”).
In Qualitex, the Supreme Court permitted a party to
trademark a particular color only after explaining that
protection might not be available if the “color serve[d]
a significant nontrademark function.” Qualitex, 514
U.S. at 170, 115 S.Ct. 1300.
ABPA acknowledges that no court has applied “aesthetic functionality” to design patents, but it asks us
to become the first. Appellant’s Br. 28–29. We decline.
Though trademarks and design patents have certain

39a
similarities, see id. at 29–30, it does not follow that
trademark principles apply equally to design patents.
Trademarks and design patents serve different purposes and have different governing law. Trademarks
promote competition by permitting a perpetual monopoly over symbols that “distinguish[ ] a firm’s goods and
identif[y] their source, without serving any other
significant function.” Qualitex, 514 U.S. at 166, 115
S.Ct. 1300. Trademarks ensure that a particular producer reaps the rewards—and bears the risks—of its
products’ quality and desirability. See id. at 163–64,
115 S.Ct. 1300. It follows that a company may not
indefinitely inhibit competition by trademarking features, whether utilitarian or aesthetic, “that either are
not associated with a particular producer or that have
value to consumers that is independent of identification.” Pub’ns Int’l, 164 F.3d at 339; see also Qualitex,
514 U.S. at 164–65, 115 S.Ct. 1300 (holding companies
may not “inhibit[ ] legitimate competition” by trademarking desirable features to “put competitors at a
significant non-reputation-related disadvantage”). In
contrast, design patents expressly grant to their owners
exclusive rights to a particular aesthetic for a limited
period of time. See Qualitex, 514 U.S. at 164, 115 S.Ct.
1300; see also U.S. Const. art. I, § 8, cl. 8. The considerations that drive the aesthetic functionality doctrine
of trademark law simply do not apply to design
patents.
ABPA also attempts to justify its functionality argument with reference to our case law, but it misunderstands our precedent. In Best Lock Corp. v. Ilco Unican
Corp., 94 F.3d 1563 (Fed. Cir. 1996), we considered a
design patent for a key “blade,” the portion of the key
that interacts with a lock to open or close it. Id. at
1564. The parties agreed that “the key blade must be
designed as shown in order to perform its intended

40a
function—to fit into its corresponding lock’s keyway.
An attempt to create a key blade with a different
design would necessarily fail because no alternative
blank key blade would fit the corresponding lock.” Id.
at 1566. On those facts, we affirmed the district court’s
finding that the claimed key blade design was dictated
solely by function, and the design patent was invalid.
Id. ABPA argues that only Ford’s patented designs
aesthetically “match” the F-150,2 and attempts to
analogize Best Lock to the instant case. But Best Lock
turned on the admitted fact that no alternatively
designed blade would mechanically operate the lock—
not that the blade and lock were aesthetically compatible. Id.; see also Static Control Components, Inc. v.
Lexmark Int’l, Inc., 697 F.3d 387, 395, 422 (6th Cir.
2012) (holding a printer cartridge design functional
where “each company’s cartridges will work with only
its brand of printers” and “the design of the printer
dictated the exact design of the cartridge”).
Best Lock is distinguished for yet another reason.
Ford introduced abundant evidence of alternative headlamp and hood designs that physically fit its trucks.
See Auto. Body Parts, 293 F. Supp. 3d at 703 (reproducing images); J.A. 2442–43. ABPA’s own witnesses
testified to the existence of “performance parts” that
have a different “design or shape” than the manufacturer’s parts so that they have “some aesthetic appeal
or something like that.” J.A. 940–41; see also J.A.
1312–13 (testifying that customers select performance
parts because “[t]hey want [their vehicles] to look dif2

ABPA also briefly suggests that insurers require repair parts
to use Ford’s original designs with the F-150 but cites no evidentiary support. ABPA’s own witness explained that insurers simply
pay a sum of money for repairs; they do not dictate whether a
repair is even made. J.A. 1312.

41a
ferent”). And ABPA admitted that a “performance
part” “will fit the associated vehicle . . . but may differ
in appearance from the original part.” J.A. 1330; see
also J.A. 1340 (same). On these facts, Best Lock bears
little similarity to this case.
Similarly, ABPA urges us to rule that Ford’s designs
are not a “matter of concern” to consumers. We have
explained that a design is generally not a “matter of
concern,” and lacks ornamentality, if it may not be
observed or if it is assessed only for functionality. See
In re Webb, 916 F.2d 1553, 1557–58 (Fed. Cir. 1990).
ABPA avers that consumers assess Ford’s designs only
to assess their aesthetic compatibility with the F-150.
But by definition, if a consumer assesses the aesthetic
of a design in considering whether to purchase it, the
design is a matter of concern. See id. Indeed, ABPA
and its witnesses admitted that customers select
replacement parts from among multiple different
designs based on their preferred aesthetic, further
undermining ABPA’s position. See J.A. 940–41, 1312–
13, 1330, 1340. And regardless, the district court found
that “it is beyond reasonable debate that the design of
an auto-body part is important to consumers at least
when they are deciding which car to buy.” Auto. Body
Parts, 293 F. Supp. 3d at 701. ABPA fails to explain
how that well-supported finding constitutes error.
Finally, ABPA asks this court to rule, as a matter of
policy, that Ford’s design patents may be enforced only
in the initial market for sale of the F-150, and not in
the market for replacement components. Appellant’s
Br. 36. ABPA argues that a market-specific rule is
appropriate because customers have different concerns in different contexts. It declares that customers
care about design in the initial sales market, but not
when they select replacement parts. But ABPA cites

42a
no supporting facts. Instead, it ignores abundant record
evidence regarding performance parts available as
replacements for customers who “want [their vehicles]
to look different.” J.A. 1312–13. It cites no patent case
to support its argument. And it seeks to side-step our
precedent, which asks “whether at some point in the
life of the article an occasion (or occasions) arises when
the appearance of the article becomes a ‘matter of concern.’” Webb, 916 F.2d at 1557 (emphasis added).
Finding neither legal nor factual support for ABPA’s
argument, we reject it.3 We therefore affirm the district court’s determination that ABPA failed, as a matter of law, to prove Ford’s designs functional by clear
and convincing evidence. See Ethicon, 796 F.3d at
1328 (discussing burden and standard of proof).
II
We next address ABPA’s contention that Ford’s
patents are unenforceable against its members under
the related doctrines of exhaustion and repair.
A
“The franchise which the patent grants, consists altogether in the right to exclude every one from making,
using, or vending the thing patented, without the permission of the patentee.” Bloomer v. McQuewan, 55
U.S. (14 How.) 539, 549, 14 L.Ed. 532 (1852). But when
the patentee sells his invention, the thing sold “is no
longer within the limits of the monopoly.” Id.; see also
3

A bill seeking to create a market-based analysis specifically
for auto-body design patents was introduced in a previous Congress but has not become law. See PARTS Act, S. 780, 113th Cong.
(2013); J.A. 664. “[I]t is not our job to apply laws that have not
yet been written.” See Sony Corp. of Am. v. Universal City
Studios, Inc., 464 U.S. 417, 456, 104 S.Ct. 774, 78 L.Ed.2d 574
(1984).

43a
United States v. Masonite Corp., 316 U.S. 265, 277–78,
62 S.Ct. 1070, 86 L.Ed. 1461 (1942). This “wellestablished” rule, dubbed exhaustion, “marks the point
where patent rights yield to the common law principle
against restraints on alienation.” Impression Prods.,
Inc. v. Lexmark Int’l, Inc., ––– U.S. ––––, 137 S. Ct.
1523, 1531, 198 L.Ed.2d 1 (2017). An authorized sale
compensates the patentee for his invention. After such
a sale, the patentee may no longer “‘control the use or
disposition’ of the product.” Id. (quoting United States
v. Univis Lens Co., 316 U.S. 241, 250, 62 S.Ct. 1088,
86 L.Ed. 1408 (1942)). And the purchaser may use or
dispose of that product without incurring liability for
infringement. See, e.g., ExcelStor Tech., Inc. v. Papst
Licensing GMBH & Co. KG, 541 F.3d 1373, 1376 (Fed.
Cir. 2008) (“patent exhaustion is a defense to patent
infringement”).
Ford concedes that when it sells an F-150, its
patents are exhausted as to the components actually
sold as part of that truck. Oral Arg. at 17:58–18:24,
http://oralarguments.cafc.uscourts.gov/default.aspx?fl
=2018-1613.mp3. ABPA argues that exhaustion extends
further, asserting that the sale of an F-150 truck
totally exhausts any design patents embodied in the
truck and permits use of Ford’s designs on replacement parts so long as those parts are intended for use
with Ford’s trucks. See Appellant’s Br. 43–45. But
exhaustion attaches only to items sold by, or with the
authorization of, the patentee. See Jazz Photo Corp. v.
Int’l Trade Comm’n, 264 F.3d 1094, 1105 (Fed. Cir.
2001) (explaining that an authorized sale “‘exhausts’
the patentee’s right to control further sale and use of
that article” but does not permit a “second creation of
the patented entity” (emphasis added)), overruled on
other grounds by Impression Prod., 137 S. Ct. at 1538;
see also Bowman v. Monsanto Co., 569 U.S. 278, 286,

44a
133 S.Ct. 1761, 185 L.Ed.2d 931 (2013) (“The exhaustion doctrine is limited to the ‘particular item’ sold
. . . .”). ABPA’s members’ sales are not authorized by
Ford; it follows that exhaustion does not protect them.
See Helferich Patent Licensing, LLC v. N.Y. Times Co.,
778 F.3d 1293, 1302 (Fed. Cir. 2015) (“[T]he decisions
finding exhaustion . . . have done so only when . . . an
authorized acquirer was using the same invention by
infringing the asserted claims.” (emphases added)).
ABPA asks us to “adapt[ ]” this rule for design cases.
See Appellant’s Br. 49. But we apply the same rules to
design and utility patents whenever possible. See 35
U.S.C. § 171(b) (“The provisions of this title relating to
patents for inventions shall apply to patents for designs,
except as otherwise provided.”). Accordingly, we have
held that principles of prosecution history estoppel,
inventorship, anticipation, and obviousness apply to
both design patents and utility patents. See, e.g.,
Pac. Coast Marine Windshields Ltd. v. Malibu Boats,
LLC, 739 F.3d 694, 702 (Fed. Cir. 2014) (“The same
principles of public notice that underlie prosecution
history estoppel apply to design patents as well as
utility patents.”); Hoop v. Hoop, 279 F.3d 1004, 1007
(Fed. Cir. 2002) (“We apply the same standard of inventorship to design patents that we require for utility
patents.”); Hupp v. Siroflex of Am., Inc., 122 F.3d 1456,
1461 (Fed. Cir. 1997) (“In determining whether a design
patent is invalid based on a description in a printed
publication, . . . the factual inquiry is the same as that
which determines anticipation by prior publication of
the subject matter of a utility patent . . . .”); In re
Borden, 90 F.3d 1570, 1574 (Fed. Cir. 1996) (“Design
patents are subject to the same conditions on patentability as utility patents, including the nonobviousness
requirement of 35 U.S.C. § 103.”). We see no persua-

45a
sive reason to depart from this standard for the
exhaustion doctrine.
ABPA points to the Supreme Court’s decision in
Quanta Computer, Inc. v. LG Electronics, Inc., 553
U.S. 617, 128 S.Ct. 2109, 170 L.Ed.2d 996 (2008), to
assert that we should nevertheless create a designpatent-specific rule for exhaustion. Appellant’s Br. 49.
In Quanta, the Court rejected an attempt to exempt
method claims from exhaustion. See Quanta, 553 U.S.
at 628, 128 S.Ct. 2109. After reviewing the history and
purpose of the doctrine, the Court noted that “[o]ur
precedents do not differentiate transactions involving
embodiments of patented methods or processes from
those involving patented apparatuses or materials.”
Id. at 628–29, 128 S.Ct. 2109. It therefore held that
like other utility patents, method patents are exhausted
by the authorized sale of an item embodying the
claimed invention. Id. at 638, 128 S.Ct. 2109. And
accordingly, it determined that the sale of a microprocessor embodying a method patent exhausts that
patent. See id. It did not, however, hold that purchasers of those microprocessors could make their own,
new microprocessors using the patented invention, as
ABPA suggests. Far from supporting ABPA’s position,
Quanta supports our reluctance to establish special
rules for design patents—our precedents do not differentiate transactions involving embodiments of patented
designs from those involving patented processes or
methods. See, e.g., Jazz Photo, 264 F.3d at 1110 (“[T]he
principle of exhaustion applies to the design patents
as well as to the utility patents.”).
B
ABPA’s right of repair argument is equally unpersuasive. The right of use transferred to a purchaser by
an authorized sale “include[s] the right to repair the

46a
patented article.” Kendall Co. v. Progressive Med.
Tech., Inc., 85 F.3d 1570, 1573 (Fed. Cir. 1996). The
right of repair does not, however, permit a complete
reconstruction of a patented device or component. See
Helferich, 778 F.3d at 1303–05 (noting purchaser
cannot recreate patented product); Kendall, 85 F.3d at
1573–74 (explaining that while a purchaser may not
undertake a “complete ‘reconstruction’” of the patented
device, he may replace “individual unpatented components” of the patented article (emphasis added)). And
it does not permit a purchaser to infringe other patents
by manufacturing separately patented components of
the purchased article. See Aro Mfg. Co. v. Convertible
Top Replacement Co., 365 U.S. 336, 346, 81 S.Ct. 599,
5 L.Ed.2d 592 (1961) (“[R]eplacement of a spent,
unpatented element does not constitute reconstruction.
The decisions of this Court require the conclusion
that reconstruction of a patented entity, comprised
of unpatented elements, is limited to such a true
reconstruction of the entity as to ‘in fact make a new
article’. . . .” (emphasis added) (quoting United States
v. Aluminum Co. of Am., 148 F.2d 416, 425 (2d Cir.
1945) (Hand, J.))); Helferich, 778 F.3d at 1303–05
(noting prohibition on reconstruction).
ABPA argues that purchasers of Ford’s F-150 trucks
are licensed to repair those trucks using replacement
parts that embody Ford’s hood and headlamp design
patents. But straightforward application of longstanding case law compels the opposite conclusion.
Over 150 years ago, a New Hampshire court considered
facts similar to those of this case in Aiken v. Manchester
Print Works, 1 F. Cas. 245 (C.C.D.N.H. 1865). There,
the patentee sold a patented knitting machine whose
needles wore out on a regular basis. Id. at 245–46.
Though the needles were covered by a separate patent,
the accused infringers argued that they could properly

47a
manufacture replacement needles to continue using
the knitting machine they had purchased. The court
disagreed, holding that “the needle is subject to a
patent, and in making and using it they have infringed.”
Id. at 247. It distinguished an earlier Supreme Court
case in which a purchaser had been permitted to
replace the knives used in a patented cutting machine,
noting “the cutters and knives, in [Wilson v. Simpson,
50 U.S. (9 How.) 109, 13 L.Ed. 66 (1850) ], were not
subject to a patent.” Id. The Supreme Court endorsed
Aiken’s reasoning in Morgan Envelope Co. v. Albany
Perforated Wrapping Paper Co., 152 U.S. 425, 435–36,
14 S.Ct. 627, 38 L.Ed. 500 (1894), and its reasoning
governs here. Ford’s patents claim “[t]he ornamental
design for exterior of vehicle hood,” see D ’299 patent,
Claim, and “[t]he ornamental design for a vehicle head
lamp,” see D ’685 patent, Claim. The designs may be
embodied in the hoods and headlamps that form part
of the full F-150 truck or in separate hoods and headlamps. But though a sale of the F-150 truck permits
the purchaser to repair the designs as applied to the
specific hood and headlamps sold on the truck, the
purchaser may not create new hoods and headlamps
using Ford’s designs. Like the needles in Aiken, such
new hoods and headlamps are subject to Ford’s design
patents, and manufacturing new copies of those designs
constitutes infringement.
ABPA attempts to distinguish Aiken and its progeny
by asserting that these cases apply only to utility
patents. ABPA urges us to adopt a new rule that recognizes the “unique nature” of design patents. See Appellant’s Reply Br. 18. In particular, ABPA claims that
the statutory language authorizing design patents
dictates such a rule. Unlike 35 U.S.C. § 101, which
authorizes utility patents for a “process, machine,
manufacture, or composition of matter, or any new and

48a
useful improvement thereof,” 35 U.S.C. § 171 permits
design patents for a “design for an article of manufacture.” ABPA argues that because “article of manufacture,” is a term broad enough to include both a product
component and the product itself, see Samsung Elecs.
Co. v. Apple Inc., ––– U.S. ––––, 137 S. Ct. 429, 434,
196 L.Ed.2d 363 (2016), sale of either the component
(i.e., the hood or headlamp) or the whole product (i.e.,
the F-150) totally exhausts a design patent and permits unlimited repair. See Appellant’s Br. 43–58.
We disagree. In our view, the breadth of the term
“article of manufacture” simply means that Ford could
properly have claimed its designs as applied to the
entire F-150 or as applied to the hood and headlamp.
To determine what repair rights apply, we look to
what Ford actually claimed. As always, “the name of
the game is the claim.” Arlington Indus., Inc. v.
Bridgeport Fittings, Inc., 632 F.3d 1246, 1255 n.2 (Fed.
Cir. 2011) (quoting Giles S. Rich, The Extent of the
Protection and Interpretation of Claims–American
Perspectives, 21 Int’l Rev. Indus. Prop. & Copyright L.
497, 499, 501 (1990)). Ford chose to claim designs as
applied to portions of particular components, and the
law permits it to do so. See, e.g., Samsung, 137 S. Ct.
at 435; Gorham, 81 U.S. at 512. That the auto-body
components covered by Ford’s patents may require
replacement does not compel a special rule. Just as the
patentee in Aiken could have only claimed the needles
in conjunction with the knitting machine, Ford could
have only claimed its design as applied to the whole
truck. Unfortunately for ABPA, Ford did not do so; the
designs for Ford’s hood and headlamp are covered by
distinct patents, and to make and use those designs

49a
without Ford’s authorization is to infringe. See Aiken,
1 F. Cas. at 247.4
We thus reject ABPA’s attempts to develop design
patent-specific exhaustion and repair rules.5 Consequently, we affirm the district court’s ruling that
ABPA has not shown that Ford’s designs for an F-150
hood and headlamp are exhausted when Ford sells an
F-150 truck.
CONCLUSION
Having considered the parties’ remaining arguments
and found them unpersuasive, we affirm the district
court.
AFFIRMED
COSTS
Costs to Appellee.

4

ABPA asserts that Ford’s purchasers are unaware of the
design patents covering the hood and headlamp and suggests
that as a result we should permit their use of the patented
designs. Appellant’s Br. 56–57. Even if purchasers are unaware—
and ABPA cites no factual support for that assertion—direct
infringement does not require knowledge of a patent. See Glob.Tech Appliances, Inc. v. SEB S.A., 563 U.S. 754, 761 n.2, 131 S.Ct.
2060, 179 L.Ed.2d 1167 (2011) (“[A] direct infringer’s knowledge
or intent is irrelevant.”).
5

As an additional argument for affirmance, Ford asserts that
because ABPA and its members are not themselves the purchasers of Ford’s trucks, they cannot benefit from an implied license
to repair the trucks. See Appellee’s Br. 43–45. For purposes of this
opinion, we do not reach this issue.

50a
APPENDIX D
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2018-1613
————
AUTOMOTIVE BODY PARTS ASSOCIATION,
Plaintiff-Appellant
v.
FORD GLOBAL TECHNOLOGIES, LLC,
Defendant-Appellee
————
Appeal from the United States District Court for
the Eastern District of Michigan in No. 2:15-cv10137-LJM-RSW, Judge Laurie J. Michelson.
————
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
————
Before PROST, Chief Judge, NEWMAN, LOURIE,
SCHALL*, DYK, MOORE, O’MALLEY, REYNA,
WALLACH, TARANTO, CHEN, HUGHES, and
STOLL, Circuit Judges.
PER CURIAM.

*

Circuit Judge Schall participated only in the decision on the
petition for panel rehearing.

51a
ORDER
Appellant Automotive Body Parts Association filed
a combined petition for panel rehearing and rehearing
en banc. The petition was referred to the panel that
heard the appeal, and thereafter the petition for rehearing en banc was referred to the circuit judges who are
in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on September
20, 2019.
FOR THE COURT
September 13, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

52a
APPENDIX E
(12) United States Design Patent
Metros et al.
(10) Patent No.: US D501,685 S
(45) Date of Patent: ** Feb. 8, 2005
————
(54) VEHICLE HEAD LAMP
(75) Inventors: Craig Metros, Bloomfield, MI (US);
Jeffery M. Nowak, Huntington Woods,
MI (US); Patrick J. Schiavone, Birmingham, MI (US); Tyler Jon Blake,
Dearborn, MI (US)
(73) Assignee: Ford Global Technologies, LLC,
Dearborn, MI (US)
(**) Term:

14 Years

(21) Appl. No.: 29/173,484
(22) Filed:

Dec. 30, 2002
Related U.S. Application Data

(63) Continuation-in-part of application No.
29/171,865, filed on Dec. 2, 2002.
(51) LOC (7) Cl. ......................................... 26-06
(52) U.S. Cl. ............................................... D26/28
(58) Field of Search ........... D26/28-36; 362/61,
362/80, 81, 82, 83, 83.4,
267, 269, 275, 457-468,
475-478, 485-487
(56)

References Cited

53a
U.S. PATENT DOCUMENTS
D465,040
D469,194
D470,958
D476,757

S
S
S
S

* 10/2002 Lin .......................... D26/28
* 1/2003 Horowitz ................. D26/28
* 2/2003 Shih et al. ............... D26/28
* 7/2003 Pfeiffer .................... D26/28
OTHER PUBLICATIONS

Photographs of commercial parts, 6 pages, prior to
Dec. 20, 2002.*
Photographs of commercial parts-66 pages, prior to
Dec. 30, 2002.
Ford Motor Company; excerpts from product brochure
entitled “1978 Ford Pickups”.
Ford Motor Company; excerpts from product brochure
entitled “‘78 Ford Pickups. Tough All Over.”
Ford Motor Company; excerpts from product brochure
entitled “Ford Truck Accessories and Specialties
Catalog”; published 1978.
Ford Motor Company; excerpts from product brochure
entitled “Nuovo Ford Transit.”; published circa 1978.
Ford Motor Company; excerpts from product brochure
entitled “’78 Ford Courier”.
Ford Motor Company; excerpts from product brochure
entitled “Tough Ford pickups: America’s No. 1
sellers.*”; published circa 1977.
Ford Motor Company; excerpts from product brochure
entitled “1978 Ford Recreation Vehicles”.
(List continued on next page.)

54a
Primary Examiner—Marcus A. Jackson
(74)

Attorney, Agent, or Firm—David B. Kelley

(57)

CLAIM

The ornamental design for a vehicle head lamp, as
shown and described.

DESCRIPTION
FIG. 1 is a perspective view of a vehicle head lamp in
accordance with an embodiment of the present
invention;
FIG. 2 is a front view of the vehicle head lamp of FIG.
1;
FIG. 3 is a side view of the vehicle head lamp of
FIG. 1;
FIG. 4 is a top view of the vehicle head lamp of FIG. 1;
and,
FIG. 5 is a perspective view of a vehicle head lamp in
accordance with another embodiment of the present
invention.

55a
The head lamp is intended for attachment to a vehicle,
and the broken lines in the drawings are not part of
the claimed design. The vehicle head lamp of FIGS. 14 is intended for use on the right front fender of a
vehicle. FIG. 5 shows an alternate embodiment for the
same head lamp intended for use on the left front
fender of the vehicle. Other than the location and orientation, the head lamps for either fender of the vehicle are the same.
1 Claim, 3 Drawing Sheets

56a
APPENDIX F
(12) United States Design Patent
Metros et al.
(10) Patent No.: US D501,685 S
(45) Date of Patent: ** Feb. 8, 2005
————
(54) EXTERIOR OF VEHICLE HOOD
(75) Inventors: Craig Metros, Bloomfield, MI (US);
Patrick J. Schiavone, Birmingham,
MI (US); Tyler Jon Blake, Dearborn,
MI (US)
(73) Assignee: Ford Global Technologies, LLC,
Dearborn, MI (US)
(**) Term:

14 Years

(21) Appl. No.: 29/171,892
(22) Filed:

Dec. 2, 2002

(51) LOC (7) Cl. ...........................................

12-16

(52) U.S. Cl. ................................................. D12/173
(58) Field of Search ..................... D12/173, 90-92,
D12/196; 180/69.1,
69.2, 69.22, 69.25
(56)

References Cited
U.S. PATENT DOCUMENTS

D391,450 S * 3/1998 Rausch .....................
D421,587 S * 3/2000 Horbury et al. ..........
D437,270 S * 2/2001 Yokomaku ................
D489,281
* 6/2002 Sinkiortz ..................

D12/173
D12/173
D12/173
D12/173

57a
OTHER PUBLICATIONS
Photographs of Commercial Parts, 6 Pages. Photographs of commercial parts-57 pages.
Ford Motor Company; excerpts from product brochure
entitled “1978 Ford Pickups”.
Ford Motor Company; excerpts from product brochure
entitled “’78 Ford Pickups, Tough All Over.”
Ford Motor Company; excerpts from product brochure
entitled “Ford Truck Accessories And Specialties
Catalog”; published 1978.
Ford Motor Company; excerpts from product brochure
entitled “Nuovo Ford Transit.”; published circa 1978.
Ford Motor Company; excerpts from product brochure
entitled “’78 Ford Courier”.
Ford Motor Company; excerpts from product brochure
entitled “Tough Ford pickups: America’s No. 1
sellers.*”; published circa 1977.
Ford Motor Company; excerpts from product brochure
entitled “1978 Ford Recreation Vehicles”.
Ford Motor Company; excerpts from product brochure
entitled “1978 Ford 4—Wheelers”.
Ford Motor Company; excerpts from product brochure
entitled “1978 Ford Bronco”.
Ford Motor Company; excerpts from product brochure
entitled “1978 Ford Club Wagons”.
Ford Motor Company; excerpts from product brochure
entitled “Free Wheelin’ Ford Trucks”; published circa
1977. Ford Motor Company; excerpts from product
brochure entitled “1978 Ford Econoline”.

58a
Ford Motor Company; excerpts from product brochure
entitled “1978 Ford Courier”.
Ford Motor Company; excerpts from product brochure
entitled “1979 Ford Recreation Vehicles”.
Ford Motor Company; excerpts from product brochure
entitled “Ford Club Wagon Van”; published circa 1978.
(List continued on next page.)
Primary Examiner—Melody N. Brown
(74)
(57)

Attorney, Agent, or Firm—David B. Kelley
CLAIM

The ornamental design for exterior of vehicle hood, as
shown and described.

DESCRIPTION
FIG. 1 is a perspective view of an exterior of vehicle
hood in accordance with an embodiment of the present
invention;
FIG. 2 is a front view of the vehicle hood of FIG. 1;
FIG. 3 is a top view of the vehicle hood of FIG. 1; and,
FIG. 4 is a side view of the vehicle hood of FIG. 1.

59a
The hood is intended for attachment to a vehicle, and
the broken lines in the drawings are for illustrative
purposes only and not part of the claimed design. The
bottom view of the hood is not part of the claimed
design. The side views of the vehicle hood are mirror
images of one another.
1 Claim, 2 Drawing Sheets

60a
APPENDIX G
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
————
Civil Action No. 2:15-CV-10137-UM-MJH
————
AUTOMOTIVE BODY PARTS ASSOCIATION,
Plaintiff,
v.
FORD GLOBAL TECHNOLOGIES, LLC,
Defendant.
————
DECLARATION OF JOSEPH TSAI
1. My name is Joseph Tsai. I am fully qualified to
make this declaration and have personal knowledge of
the facts stated herein.
2. I am on the Board of Directors of the Auto-motive
Body Parts Association (ABPA).
3. I am Vice-President at New World Inter-national
(New World). New World is located at 1720 East State
Highway 356 in Irving, Texas 75060. New World is in
the business of distributing aftermarket automotive
body parts and is a member of the ABPA.
4. The aftermarket body parts that New World has
sold in the past include 2004 Ford F-150 hoods, grilles,
and headlamps, and 2005 Mustang front bumper
fascias, hoods, and taillamps. These parts have the same
appearance as the parts that are originally included
on the 2004 Ford F-150 and 2005 Mustang when they
are originally sold.

61a
5. The F-150 Truck and 2005 Mustang sometimes
are involved in collisions and need repair. I am generally familiar with the process of repair when a Ford
F-150 or 2005 Mustang become damaged in a collision
or for other reasons such as vandalism or hail damage.
6. New World purchases the repair parts from a
manufacturer or distributor and then sells it to a
person or entity needing the parts for repair of the
Ford F-150 or Mustang. The person or entity purchasing the repair part from New World may be, for
example, the owner of the vehicle or a repair facility.
To my knowledge, the repair parts are always sold for
the purpose of repairing the vehicles and are never
sold for any other purpose.
7. To my knowledge, the repair parts are not sold to
reconstruct an essentially new vehicle. Rather, the
repair parts are sold to repair a vehicle. In my experience and to my knowledge, if the damage to a F-150
Truck, Mustang, or other vehicle is so extensive that
essentially a new vehicle has to be reconstructed, the
vehicle will not be repaired. That is because the cost of
the reconstruction will greatly exceed the cost of purchasing another F-150 Truck, Mustang, or other vehicle.
I declare under penalty of perjury that the foregoing
is true and correct to the best of my knowledge and
belief.
Dated: 10/31/16

/s/ Joseph Tsai
Joseph Tsai

